<html>
<title> - [H.A.S.C. No. 114-70] RUSSIAN ARMS CONTROL CHEATING: VIOLATION OF THE INF TREATY AND THE ADMINISTRATION'S RESPONSES ONE YEAR LATER</title>
<body><pre>[House Hearing, 114 Congress]
[From the U.S. Government Publishing Office]






 

                         [H.A.S.C. No. 114-70]

                     RUSSIAN ARMS CONTROL CHEATING:

                    VIOLATION OF THE INF TREATY AND

                     THE ADMINISTRATION'S RESPONSES

                             ONE YEAR LATER

                               __________

                             JOINT HEARING

                               before the

                    SUBCOMMITTEE ON STRATEGIC FORCES

                                 of the

                      COMMITTEE ON ARMED SERVICES

                          meeting jointly with

         SUBCOMMITTEE ON TERRORISM, NONPROLIFERATION, AND TRADE

                                 of the

                      COMMITTEE ON FOREIGN AFFAIRS

                          [Serial No. 114-138]

                        HOUSE OF REPRESENTATIVES

                    ONE HUNDRED FOURTEENTH CONGRESS

                             FIRST SESSION

                               __________

                              HEARING HELD

                            DECEMBER 1, 2015
                                     



[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]





                                   ______

                         U.S. GOVERNMENT PUBLISHING OFFICE 

97-826                         WASHINGTON : 2016 
-----------------------------------------------------------------------
  For sale by the Superintendent of Documents, U.S. Government Publishing 
  Office Internet: bookstore.gpo.gov Phone: toll free (866) 512-1800; 
         DC area (202) 512-1800 Fax: (202) 512-2104 Mail: Stop IDCC, 
                          Washington, DC 20402-0001





















                                     
                      COMMITTEE ON ARMED SERVICES
                    SUBCOMMITTEE ON STRATEGIC FORCES

                     MIKE ROGERS, Alabama, Chairman

TRENT FRANKS, Arizona                JIM COOPER, Tennessee
DOUG LAMBORN, Colorado, Vice Chair   LORETTA SANCHEZ, California
MIKE COFFMAN, Colorado               RICK LARSEN, Washington
MO BROOKS, Alabama                   JOHN GARAMENDI, California
JIM BRIDENSTINE, Oklahoma            MARK TAKAI, Hawaii
J. RANDY FORBES, Virginia            BRAD ASHFORD, Nebraska
ROB BISHOP, Utah                     PETE AGUILAR, California
MICHAEL R. TURNER, Ohio
JOHN FLEMING, Louisiana
                         Tim Morrison, Counsel
                         Leonor Tomero, Counsel
                           Mike Gancio, Clerk

                                 ------                                

                      COMMITTEE ON FOREIGN AFFAIRS

                 EDWARD R. ROYCE, California, Chairman
CHRISTOPHER H. SMITH, New Jersey     ELIOT L. ENGEL, New York
ILEANA ROS-LEHTINEN, Florida         BRAD SHERMAN, California
DANA ROHRABACHER, California         GREGORY W. MEEKS, New York
STEVE CHABOT, Ohio                   ALBIO SIRES, New Jersey
JOE WILSON, South Carolina           GERALD E. CONNOLLY, Virginia
MICHAEL T. McCAUL, Texas             THEODORE E. DEUTCH, Florida
TED POE, Texas                       BRIAN HIGGINS, New York
MATT SALMON, Arizona                 KAREN BASS, California
DARRELL E. ISSA, California          WILLIAM KEATING, Massachusetts
TOM MARINO, Pennsylvania             DAVID CICILLINE, Rhode Island
JEFF DUNCAN, South Carolina          ALAN GRAYSON, Florida
MO BROOKS, Alabama                   AMI BERA, California
PAUL COOK, California                ALAN S. LOWENTHAL, California
RANDY K. WEBER SR., Texas            GRACE MENG, New York
SCOTT PERRY, Pennsylvania            LOIS FRANKEL, Florida
RON DeSANTIS, Florida                TULSI GABBARD, Hawaii
MARK MEADOWS, North Carolina         JOAQUIN CASTRO, Texas
TED S. YOHO, Florida                 ROBIN L. KELLY, Illinois
CURT CLAWSON, Florida                BRENDAN F. BOYLE, Pennsylvania
SCOTT DesJARLAIS, Tennessee
REID J. RIBBLE, Wisconsin
DAVID A. TROTT, Michigan
LEE M. ZELDIN, New York
DANIEL DONOVAN, New York

     Amy Porter, Chief of Staff      Thomas Sheehy, Staff Director

               Jason Steinbaum, Democratic Staff Director
                                 ------                                

         Subcommittee on Terrorism, Nonproliferation, and Trade

                        TED POE, Texas, Chairman
JOE WILSON, South Carolina           WILLIAM KEATING, Massachusetts
DARRELL E. ISSA, California          BRAD SHERMAN, California
PAUL COOK, California                BRIAN HIGGINS, New York
SCOTT PERRY, Pennsylvania            JOAQUIN CASTRO, Texas
REID J. RIBBLE, Wisconsin            ROBIN L. KELLY, Illinois
LEE M. ZELDIN, New York





































                            C O N T E N T S

                              ----------                              
                                                                   Page

              STATEMENTS PRESENTED BY MEMBERS OF CONGRESS

Cooper, Hon. Jim, a Representative from Tennessee, Ranking 
  Member, Subcommittee on Strategic Forces, Committee on Armed 
  Services.......................................................     4
Keating, Hon. William, a Representative from Massachusetts, 
  Ranking Member, Subcommittee on Terrorism, Nonproliferation, 
  and Trade, Committee on Foreign Affairs........................     4
Poe, Hon. Ted, a Representative from Texas, Chairman, 
  Subcommittee on Terrorism, Nonproliferation, and Trade, 
  Committee on Foreign Affairs...................................     2
Rogers, Hon. Mike, a Representative from Alabama, Chairman, 
  Subcommittee on Strategic Forces, Committee on Armed Services..     1

                               WITNESSES

Gottemoeller, Hon. Rose E., Under Secretary for Arms Control and 
  International Security, U.S. Department of State...............     5
McKeon, Hon. Brian P., Principal Deputy Under Secretary of 
  Defense for Policy, U.S. Department of Defense.................     7

                                APPENDIX

Prepared Statements:

    Cooper, Hon. Jim.............................................    35
    Gottemoeller, Hon. Rose E....................................    36
    McKeon, Hon. Brian P.........................................    43
    Rogers, Hon. Mike............................................    33

Documents Submitted for the Record:

    Graphic displayed by Mr. Rogers..............................    55
    Letter from Mr. Rogers and Mr. Poe to the Chairman of the 
      Joint Chiefs of Staff......................................    56

Witness Responses to Questions Asked During the Hearing:

    [There were no Questions submitted during the hearing.]

Questions Submitted by Members Post Hearing:

    Mr. Cooper...................................................    63
    Mr. Poe......................................................    63
    Mr. Rogers...................................................    59
    Mr. Turner...................................................    65











  RUSSIAN ARMS CONTROL CHEATING: VIOLATION OF THE INF TREATY AND THE 
               ADMINISTRATION'S RESPONSES ONE YEAR LATER

                              ----------                              

        House of Representatives, Committee on Armed 
            Services, Subcommittee on Strategic Forces, 
            Meeting Jointly with the Committee on Foreign 
            Affairs, Subcommittee on Terrorism, 
            Nonproliferation, and Trade, Washington, DC, 
            Tuesday, December 1, 2015.

    The subcommittees met, pursuant to call, at 3:30 p.m., in 
room 2118, Rayburn House Office Building, Hon. Mike Rogers 
(chairman of the Subcommittee on Strategic Forces, Committee on 
Armed Services) presiding.

 OPENING STATEMENT OF HON. MIKE ROGERS, A REPRESENTATIVE FROM 
ALABAMA, CHAIRMAN, SUBCOMMITTEE ON STRATEGIC FORCES, COMMITTEE 
                       ON ARMED SERVICES

    Mr. Rogers. Good afternoon. I would like to welcome 
everyone to this joint hearing of the House Armed Services 
Subcommittee on Strategic Forces and the House Foreign Affairs 
Subcommittee on Terrorism, Trade, and Nonproliferation on 
``Russian Arms Control Cheating: Violation of the INF Treaty 
and the Administration's Responses One Year Later.''
    Testifying today are the following witnesses: The Honorable 
Rose Gottemoeller, Under Secretary of State for International 
Security, Department of State; the Honorable Brian McKeon, 
Principal Deputy Under Secretary of Defense for Policy, 
Department of Defense.
    This is an update to last year's hearing with these 
witnesses, and we are eager to learn what the administration 
has been doing since we met in open and closed sessions on this 
topic last December. Congress, as I promised last year, has not 
been sitting idle. The recently enacted fiscal year 2016 NDAA 
[National Defense Authorization Act] included section 1243, 
which directs the Secretary of Defense and the Chairman of the 
Joint Chiefs of Staff to begin the research and development of 
military response options to Russia's violation.
    INF [Intermediate-Range Nuclear Forces] is, of course, not 
the only treaty or agreement that Russia is violating. We 
learned from Ms. Gottemoeller during last year's hearing that 
on 8 of 12 treaties and agreements, Russia is not in compliance 
or is in outright violation of those obligations.
    INF has earned a lot of attention, but what of the Chemical 
Weapons Convention, the Biological Weapons Convention, the Open 
Skies Treaty? Are we less concerned about Russian chemical or 
biological weapons that can be used against the United States 
than intermediate-range missiles that cannot? No, of course 
not.
    And this hearing is also the first opportunity for many 
members to ask the administration about the recent Russian 
disclosure of a nuclear-powered nuclear warhead that occurred 
during review of Russia's nuclear forces that included its 
President, Vladimir Putin. According to the Russian 
translations of what was disclosed, this weapon would provide 
Russia with a new capability to damage, quote: ``The important 
components of the adversary's economy and coastal area, and 
inflicting unacceptable damage to the country's territory by 
creating areas of wide radioactive contamination that would be 
unsustainable for military, economic, or other activity for 
long periods of time,'' close quote.
    [The graphic displayed can be found in the Appendix on page 
55.]
    Mr. Rogers. What does that say about a country that feels 
that nuclear weapons are such a significant tool of its 
military and diplomatic strategy that it discloses systems in 
this manner? And what does it say about a country that would 
invest resources in such a weapon? It is just nuts.
    Yet the only time the President talks about--our President 
talks about nuclear weapons is when he wants to propose 
reducing them. The world is paying attention. We need our 
President to change his rhetoric.
    So we have a lot to talk about today. I am looking forward 
to learning what the administration has been up to since this 
time last year. I am looking forward to hearing, to learning 
about the military assessment and review of military options 
that the former Chairman of the Joint Chiefs of Staff, General 
Dempsey, produced, whether in the open hearing or the closed 
session.
    With that, I would like to turn things over to Chairman Poe 
for any opening statement that he may have.
    [The prepared statement of Mr. Rogers can be found in the 
Appendix on page 33.]

OPENING STATEMENT OF HON. TED POE, A REPRESENTATIVE FROM TEXAS, 
  CHAIRMAN, SUBCOMMITTEE ON TERRORISM, NONPROLIFERATION, AND 
              TRADE, COMMITTEE ON FOREIGN AFFAIRS

    Mr. Poe. I thank the chairman. Last year we held a hearing 
on this same topic in December of last year. It seems like it 
is Groundhog Day. Here we are again, and we all agree that 
Russia violated the treaty, but we are still talking about what 
the appropriate response should be. Russia is not someone that 
is our friend or ally, and we certainly can't take them for 
their word.
    In 2008, the same year Russia violated the INF Treaty, it 
invaded a sovereign country, Georgia. I have been to Georgia. I 
have seen the Russian tanks on the hills. Seven years later, 
Russia still occupies a third of that nation.
    Last year Putin was at it again. He told the world that 
Russian troops were not in Crimea while the world watched 
Russian tanks and little green men come into that area.
    Russia is now conducting strikes in Syria to prop up a 
dictator who has murdered thousands of Syrians.
    Putin seems to want to expand his empire, and the Russian 
bear is out of the cage, and it is time we recognize them for 
what they are doing. They are being aggressive.
    It is no surprise that Russia is once again breaking its 
word when it comes to a signed arms control treaty. The 
Intermediate-Range Nuclear Forces Treaty is a treaty between 
the United States, which places limits on ground-launched 
ballistic and cruise missiles with ranges up between 500 and 
5,500 kilometers. The United States has held up our bargain. 
The Russians have not.
    Just according to press reports, it appears the Russians 
have tested a ground-launched cruise missile. They have 
responded that this is a sea-based missile, which does not fall 
under the treaty. That is nonsense. According to press releases 
also, the administration seems to have known about the 
violations back in 2008. It took 3 years for the administration 
to report concern about the Russian compliance in Congress; 
took 6 years for the State Department to officially find the 
Russians in violation; and this year the State Department 
repeated its findings that the Russians are in violation of the 
treaty.
    Chairman Rogers and I have made several appeals to the 
State Department and Department of Defense about this issue. 
Candidly, the responses we have gotten back lead me to believe 
that we are not taking the issue as seriously as we should. We 
have so far made no substantial progress in bringing the 
Russians back into compliance. After 7 years, there have been 
no consequences for the violation of the treaty. We have told 
the Russians our concerns. And their response: the Russians 
deny they are violating the treaty.
    What I would like to know is what I asked last year: What 
are the next steps? How are we going to convince the Russians 
that we do mean business--if we do mean business? What is the 
administration going to do to hold the Russians' feet to the 
fire and hold them accountable? There are some who want to go 
easy on the Russians in that they want to ignore this 
situation. I don't think that that is the appropriate response 
the United States should have toward the Russians and the 
stockpiling of these violations.
    So I look forward to what the witnesses have to say, to be 
upfront, candid, blunt about what is the strategy? What are we 
doing? What is the United States and our allies doing? And then 
we have the problem of two rogue nations already developing 
very similar weapons that we and the Russians have supposedly 
agreed not to develop, and that would be Iran and Pakistan 
developing similar weapons. So what is the United States 
response going to be, and what do we plan to do about it?
    And I will yield back to the chairman.
    Mr. Rogers. I thank the gentleman.
    The Chair now recognizes my friend and colleague from 
Tennessee, the ranking member of the Strategic Forces 
Subcommittee, Mr. Cooper, for any statement he might have.

STATEMENT OF HON. JIM COOPER, A REPRESENTATIVE FROM TENNESSEE, 
RANKING MEMBER, SUBCOMMITTEE ON STRATEGIC FORCES, COMMITTEE ON 
                         ARMED SERVICES

    Mr. Cooper. Thank you, Mr. Chairman. I think we would all 
like to welcome our colleagues from the Foreign Affairs 
Committee. We hope that they will treat us kindly at the next 
NDAA when it comes to sequential referrals or any issues like 
that. But you are always welcome in the Armed Services 
Committee room.
    I also hope that our friends from Foreign Affairs can join 
us in the classified session to follow this hearing. In fact, 
it would be good if this public portion were kept as short as 
possible so that we can learn as much as possible in the 
classified session. Everyone knows that Mr. Putin doesn't 
conduct his business in public, and why give him an advantage 
by displaying our deliberations.
    We have before us today two very distinguished public 
servants. I look forward to hearing their testimony, and I also 
hope that our colleagues will bear in mind that international 
relations are not black and white, particularly when it comes 
to Russia. I know that our chairman is very sensitive to the 
issue of the RD-180 rockets, which, unfortunately, we depend on 
quite heavily for U.S. assured access to space.
    And it is kind of an amazing thing throughout the perils of 
the Cold War, we have always had a pretty reliable supply of 
those rockets. So nothing is black or white. No one is 
defending Mr. Putin. We know that they cheat. We are outraged 
by their takeover of Crimea, the invasion of Ukraine, their 
bombing of anti-Assad forces in Syria. But it is very important 
that really the meat of this hearing be held in the classified 
session that will be upcoming. So I look forward to seeing all 
of my colleagues upstairs in a few minutes.
    Thank you, Mr. Chairman.
    [The prepared statement of Mr. Cooper can be found in the 
Appendix on page 35.]
    Mr. Rogers. I thank the gentleman.
    The Chair now recognizes the gentleman from Massachusetts, 
Mr. Keating, for any opening statement he may have.

   STATEMENT OF HON. WILLIAM KEATING, A REPRESENTATIVE FROM 
   MASSACHUSETTS, RANKING MEMBER, SUBCOMMITTEE ON TERRORISM, 
   NONPROLIFERATION, AND TRADE, COMMITTEE ON FOREIGN AFFAIRS

    Mr. Keating. Well, thank you, Chairman Rogers, and Chairman 
Poe, Ranking Member Cooper, for conducting this timely hearing. 
I also would like to thank our two witnesses for being here 
today to discuss the Intermediate-Range Nuclear Forces Treaty, 
both in this hearing and later on in the classified briefing to 
follow.
    I understand that they are limited to what you can say and 
disclose in this setting, but I appreciate the opportunity to 
discuss publicly the issue of Russia's compliance with the INF 
Treaty, something I think that is important for the public to 
know but not necessarily details that will advantage the 
Russians.
    Twenty-eight years after the INF Treaty was signed, it 
remains one of the most important nuclear treaties that the 
United States has ever signed with Russia. State Department and 
numerous observers have stated that Russia has developed, 
produced, and flight tested a ground-launched cruise missile in 
clear violation of the INF Treaty. Russian violation of the INF 
Treaty, as with the violation of any treaty, would be a serious 
matter. I look forward to further details regarding the 
particular Russian weapon system at issue, and a discussion of 
what its deployment would mean for Russia in terms of its 
military strategy and how it would impact the security in 
Europe and in Asia, importantly.
    If Russia is found noncompliant with the treaty, the United 
States, in conjunction with our allies, should use all of the 
tools at our disposal to pressure the Russians into ending 
these offending activities. While the question of noncompliance 
by Russia must squarely and seriously be dealt with, it is 
critical that the United States for the time being continue to 
observe the treaty. A withdrawal would only free Russia to 
legally pursue testing and deployment of intermediate-range 
missiles that currently violate the terms of the treaty.
    I look forward to hearing from our panel this afternoon on 
the threat posed by Russian development, production, and 
testing of intermediate-range cruise missiles; Russia's 
intention with respect to the INF Treaty; and, importantly, 
U.S. responses.
    With that, I yield back.
    Mr. Rogers. I thank the gentleman.
    The Chair now recognizes Ms. Gottemoeller for 5 minutes to 
summarize your opening statement.

  STATEMENT OF HON. ROSE E. GOTTEMOELLER, UNDER SECRETARY FOR 
  ARMS CONTROL AND INTERNATIONAL SECURITY, U.S. DEPARTMENT OF 
                             STATE

    Secretary Gottemoeller. Thank you, Mr. Chairman. Chairman 
Poe, Chairman Rogers, Ranking Members Keating and Cooper, and 
distinguished members of the House Foreign Affairs Committee 
and Armed Services Committee, thank you for hosting this 
hearing and for having me here today. This subject is one on 
which I previously briefed these same committees, including 
last year at around this time as was already indicated. To 
permit time for a good discussion today with your permission, I 
would like to abbreviate my remarks and submit my full 
testimony for the record.
    Mr. Rogers. Without objection, so ordered.
    Secretary Gottemoeller. Thank you, sir.
    Let me begin by saying that the United States does not 
undertake arms control and disarmament as an end to itself, nor 
do we look at arms control and disarmament in isolation from 
deterrence in the general strategic environment, including the 
changing security environment in Europe. Together, arms control 
and deterrence help to create the conditions for a more durable 
and predictable form of strategic stability. Therefore, 
together, they benefit U.S. national security. Arms control 
frameworks are one available and important instrument in our 
foreign policy toolkit to advance global stability and the 
security of the United States, our allies, and our partners. 
This has been true for over four decades for both Republican 
and Democratic administrations, for a wide variety of nuclear 
and conventional security issues of concern. We have worked 
closely with our allies and our partners to develop the arms 
control framework that we have today, and both we and our 
allies and partners continue to see enormous value in these 
agreements.
    Over the last three decades, there have been compliance and 
implementation issues with first the Soviets and then the 
Russians on a variety of agreements. Former officials of both 
Republican and Democratic administrations and their colleagues 
in Congress were forced to grapple with many of the same 
problems we face today. How do we resolve violations when faced 
by blatant denials? How do we work with allies and partners on 
these challenges to ensure a unified and proportionate 
response? These are not easy questions to answer. This is not 
easy work to accomplish.
    Let me assure these committees once again that the 
administration takes compliance with all arms control 
agreements extremely seriously. For this reason, this 
administration worked hard to produce a compliance report in 
July of 2010, the first delivered to Congress after a 5-year 
lapse, and has produced one every year since as required by 
statute.
    The focus of today's hearing is Russia's violation of the 
INF Treaty, so I would like to focus my remaining remarks on 
that important topic. As a first comment and in response to 
some of our opening comments, I just wanted to say that we had 
no information or indication in 2008 that the Russian 
Federation was violating the treaty. That information emerged 
in 2011, and I know we will want to discuss this more during 
the hearing and also in our closed session, but I did want to 
put that out right at the beginning.
    In May of this year, in the unclassified portion of the 
annual compliance report, the United States repeated its 
determination that Russia is in violation of its INF Treaty 
obligations. Since 2013, we have raised with Russia our serious 
concerns regarding conduct that we ultimately determined to be 
a violation of the INF Treaty and have held senior-level and 
technical-level bilateral discussions with the aim of returning 
Russia to verifiable compliance with its treaty obligations. 
Throughout the course of this year, we have raised this issue 
with Russian officials on repeated occasions and at various 
levels and in various departments within the Russian Government 
in order to resolve U.S. concerns. We have made very clear that 
this is not a technicality, a one-off event, or a case of 
mistaken identity.
    Again, it was mentioned, the notion of this being a sea-
launched cruise missile. However, this is a serious Russian 
violation of one of the most basic obligations under the INF 
Treaty. While the United States is engaging diplomatically with 
Russia as noted above, we have devoted a great deal of 
attention in 2015 to consulting with our allies and partners in 
the interest of pursuing a coordinated response to the Russian 
violation. Our allies have made clear their interest in 
preserving the INF Treaty, and their continued wish that the 
United States remain in the treaty and seek to bring the 
Russian Federation back into compliance.
    Russia continues to be unwilling to acknowledge its 
violation or address our concerns. We have shared more than 
enough information with Russian officials for them to look 
through their own records and identify the relevant program. 
Their denials and counteraccusations clearly attempt to deflect 
attention from their own violation. Therefore, we continue to 
work closely with allies on a series of diplomatic, economic, 
and military measures to protect the interests of the United 
States and our allies, and I know that my colleague Mr. McKeon 
will want to say more about the military aspects of this.
    I assure this committee that the Obama administration is 
committed to bringing Russia back into compliance with the INF 
Treaty. While our public determination and diplomacy has yet to 
lead to Russia returning to compliance, our announcement of 
Russia's violation and reaffirmation of continued U.S. 
commitment to the treaty has imposed significant costs on 
Russia. Its covert GLCM [ground-launched cruise missile] 
program has been exposed, and Moscow is not free to pursue this 
effort unconstrained, as this would confirm for the world that 
Russia has been violating an agreement that has been a key 
instrument of stability and security for nearly three decades. 
Thank you, Mr. Chairman.
    [The prepared statement of Secretary Gottemoeller can be 
found in the Appendix on page 36.]
    Mr. Rogers. Thank you.
    The Chair now recognizes Mr. McKeon for 5 minutes.

   STATEMENT OF HON. BRIAN P. MCKEON, PRINCIPAL DEPUTY UNDER 
  SECRETARY OF DEFENSE FOR POLICY, U.S. DEPARTMENT OF DEFENSE

    Mr. McKeon. Thank you very much, Mr. Chairman. Chairman 
Rogers, Chairman Poe, members of the committee, I appreciate 
the opportunity to testify before you today.
    I will not belabor the point that you already know and 
which Under Secretary Gottemoeller has already discussed, that 
the Russian Federation is in violation of its obligations under 
the INF Treaty. Since making this determination, our objective 
has been to preserve the viability of the treaty by convincing 
Russia to come back into compliance. We believe it is in our 
national security interest and our allies' interest that the 
treaty remain in force and that Russia remain a state party to 
the treaty and complies with its obligations. This means that 
Russia must cease its noncompliant activity and eliminate all 
INF Treaty-prohibited missiles and launchers in a verifiable 
manner.
    Equally important, our approach is focused on ensuring that 
Russia gains no significant military advantage from its 
violation. Doing so will ensure that our efforts to bring 
Russia back into compliance will not come at the expense of our 
security or that of our friends and allies.
    As a result of Russia's actions, in 2014 the Joint Staff 
conducted a military assessment of the threat posed by Russia 
if it were to deploy an INF Treaty-prohibited ground-launched 
cruise missile in Europe or the Asia-Pacific. This assessment 
tells us that the deployment of such a system would increase 
the risk to our allies and pose an indirect threat to the 
United States. My Joint Staff colleague can address this in 
more detail in the closed session. This assessment led us to 
review a broad range of military response options and to 
consider the effect each option would have on convincing the 
Russian leadership to return to compliance with the treaty and 
on countering the capability of a Russian INF Treaty-prohibited 
system. This assessment occurred at the same time we were 
confronting the new strategic reality in Europe: a Russia that 
is modernizing its military capabilities, a Russia that has 
destabilized the European security order by purporting to annex 
Crimea, and a Russia that is actively seeking to undermine NATO 
[North Atlantic Treaty Organization]. Finally, Moscow's nuclear 
saber-rattling has raised questions about Russia's commitment 
to strategic stability.
    In light of this new strategic reality, the administration 
determined that we needed to consider Russian actions with 
regard to the INF Treaty in the context of its overall 
aggressive and bellicose behavior that flouts international 
legal norms and destabilizes the European security order. 
Russia is not violating the INF Treaty in isolation from its 
overall aggressive behavior. Therefore, we concluded that our 
responses cannot focus solely on the INF Treaty. Stated another 
way, this is not just an arms control issue, but it represents 
a broader challenge to transatlantic security. Accordingly, we 
are developing a comprehensive response to Russian military 
actions and are committing to investments now that we will make 
irrespective of Russia's decision to return to compliance with 
the INF Treaty.
    And while we do not seek to make Russia an enemy, and we 
will cooperate with Russia where it is in our interest to do 
so, such as in the P5+1 [China, France, Russia, the United 
Kingdom, and the United States, plus Germany] negotiations with 
Iran, the President has made clear that we will uphold our 
Article 5 obligation under the North Atlantic Treaty. Our core 
objective remains the same: to ensure that Russia does not 
obtain a significant military advantage from its INF violation.
    We believe that our overall efforts to prepare for the 
defense of Europe can achieve this goal and ensure that the INF 
violations do not leave Russia with any appreciable advantage 
over us or our allies. As we consider the changed strategic 
environment in Europe we are factoring Russia's increased 
cruise missile capabilities, including its INF violation, into 
our planning. Our responses to Russia's activities in Ukraine 
as well as the complex security challenges in the south of 
Europe involve a broad range of efforts within the Department, 
bilaterally with the allies and partners, and within the NATO 
Alliance.
    First, we have focused on posture and presence. In the last 
year, under the European Reassurance Initiative, for which 
Congress generously provided nearly $1 billion in fiscal 2015, 
we have maintained a persistent rotational air, land, and sea 
presence of U.S. forces in the Baltics and Central Europe to 
reassure our allies and build up their capacity.
    We are also transforming our posture in Europe to be more 
responsive and sustainable for the 21st century. American 
rotational forces need to move more quickly and easily to 
participate in training and exercises in Europe. That is why we 
are prepositioning tanks, artillery, infantry fighting 
vehicles, and other equipment to rapidly respond to crises and 
provocation. Six states in Europe, the three Baltic states plus 
Bulgaria, Romania, and Poland, have agreed to host company- to 
battalion-sized elements of this equipment, which will be moved 
around the region for training and exercises.
    Second, the United States and the alliance are focused anew 
on planning and shaping our future military activities in 
Europe. We have energized planning and resourcing efforts in 
response to the changed security environment in and around 
Europe.
    Third, we are working to improve our defensive measures to 
deny Russian offensive capabilities by modifying and expanding 
air defense systems, including addressing the difficult 
challenge posed by cruise missiles. As Secretary Carter stated 
in a recent speech, we are investing in the technologies that 
will be most relevant to Russia's provocations, developing new 
unmanned systems, a long-range bomber, a new long-range 
standoff cruise missile, and a number of innovative 
technologies.
    Fourth, we are leading the alliance to prepare for the new 
challenges posed by Russia and instability and terrorism in 
itself in the south of Europe. We are working to implement 
agreements made at the Wales Summit and to plan for the next 
summit of leaders in Warsaw next July. NATO has reorganized the 
NATO Response Force, set up new command centers, and 
established the Very High Readiness Joint Task Force. We are 
pressing our allies to fulfill the commitment made at Wales to 
invest more in defense with a particular focus on new 
capabilities.
    We continue to look for ways to improve alliance 
capabilities and decisionmaking. With regard to NATO's nuclear 
deterrence mission, allies remain strongly committed to burden 
sharing as a foundational element of NATO's deterrence and 
defense posture. Our dual-capable F-35A is on track and should 
complete operational testing of its dual capability in 2024. 
The B61-12 nuclear gravity bomb life-extension program, a 
critical element in both our NATO commitment and our strategic 
forces, is on schedule and on budget to meet a March 2020 first 
production unit goal.
    In confronting this challenge, we will take a strong and 
balanced approach. We will not go back to the old Cold War 
playbook of having hundreds of thousands of forces in Europe. 
We are also mindful that we do not need to, nor should we, 
return to a world where we match every Russian action with a 
direct and mirror-imaged reaction. We will use a smaller 
footprint, high-impact rotational presence, build partner 
capacity, and integrate planning between space, cyber, 
conventional, and nuclear forces.
    In some, we will take the necessary steps to build U.S. and 
NATO capabilities, posture, and plans to deter Russia's 
destabilizing influence, coercion, and aggressive actions, all 
while keeping the door open for cooperation when and if Russia 
is willing. These efforts will require expenditures we were not 
planning to make and which will be challenging under a 
constrained budget. But make no mistake, we will undertake 
these efforts. Our security and that of our NATO allies 
requires an effective response and comprehensive strategy.
    Let me conclude by reiterating that the pursuit of 
strategic stability remains in the interest of both the United 
States and Russia. And we hope Russia will remember why the 
Soviet Union signed the treaty in the first place. By agreeing 
to the treaty, the United States and the Soviet Union ensured 
that both parties benefitted from the removal of weapon systems 
that posed a real and credible threat to regional and 
international security.
    We appreciate the attention of the Congress to these 
issues, and we will keep you informed of developments. Thank 
you again for the opportunity to be here.
    [The prepared statement of Mr. McKeon can be found in the 
Appendix on page 43.]
    Mr. Rogers. I thank both the witnesses, and I will 
recognize myself now for the first series of questions.
    Ms. Gottemoeller, I was just listening to your opening 
statement, and you made the point that you didn't realize that 
Russia was violating the INF Treaty until 2011. I am looking at 
an interview you did with The Denver Post 2 weeks ago on the 
13th--it was published--of November, and you stated, ``Russia 
tested starting in 2008 a ground-launched cruise missile that 
flies to ranges banned by the treaty.'' And you go ahead and 
explain what a ban means. If you didn't know until 2011, how do 
we reconcile that statement in The Denver Post with what you 
testified a few minutes ago?
    Secretary Gottemoeller. Sir, we saw that they were starting 
to test a cruise missile during that time period, but this is, 
you know, a situation where it was only over time did we 
accumulate the information that it was a ground-launched cruise 
missile. So the testing series--and again, this is something we 
can talk about in more detail--the testing series did begin in 
2008, but it was only later in that time period did we see that 
it was a ground-launched cruise missile. So I was not aware of 
how The Denver Post had put that information together, but that 
was not correct in the way they quoted the information.
    Mr. Rogers. Okay. But you do recognize that disparity, and 
it raises concerns for me that it took us 3 years. If we knew 
they started testing in 2008, it took 3 years for us to realize 
that they were violating the ranges that were committed under 
the INF Treaty.
    Secretary Gottemoeller. It is worth bearing down on this 
point for a moment, sir, because under the INF Treaty, sea-
launched cruise missiles and air-launched cruise missiles are 
permitted. And there is no reason why the Russians could not 
have been developing during that period a new sea-launched or 
air-launched cruise missile. We simply did not know until later 
in the test series that it was a ground-launched system.
    Mr. Rogers. Was any of that data shared with the Senate 
during the 2010 hearings on the New START [Strategic Arms 
Reduction] Treaty.
    Secretary Gottemoeller. Sir, we did not understand at that 
point of time, and again, I would like to talk about this 
further in our closed session along with some of our 
colleagues, but we did not know that it was not a sea-launched 
or air-launched system and completely in accord with the INF 
Treaty.
    Mr. Rogers. Okay. This question will be for either one of 
you. We were told last year in our hearing on this topic that 
there were a range of responses that had been prepared and were 
ready for consideration at the principal level. And these joint 
committees then wrote a letter to the Chairman of the Joint 
Chiefs urging action on those range of responses. And I will 
introduce that letter for the record. Did the principals ever 
meet to consider those responses? If so, when, and what did 
they decide? If not, why not?
    [The information referred to can be found in the Appendix 
on page 56.]
    Secretary Gottemoeller. I will start. I will say that we 
have had a series of interagency meetings on this matter up to 
the senior level of principals, so it hasn't been a single 
event by any means. And I will turn to Mr. McKeon to pick up on 
what is next.
    Mr. McKeon. Mr. Chairman, some of the things I have 
described in my opening statement are decisions and responses 
that we are undertaking. I can say more in closed session about 
a couple of specific matters that involve the NATO Alliance 
that are also decisions of the government.
    Mr. Rogers. Okay. Well, I won't belabor that in open 
session because I do want to pursue it in closed session, and 
my guess is you are going to tell me you couldn't say it 
anyway. But I am interested in knowing exactly how you are 
proceeding and when you are going to proceed and if we need to 
do any reprogramming in fiscal year 2016 or 2017 to accommodate 
those measures.
    Mr. McKeon. Well, part of what I should underscore, Mr. 
Chairman, from my opening statement, is as we looked at the INF 
issue, we were also confronting the broader Russia challenge 
and how to respond to it, and didn't think it was appropriate 
to respond just specifically to the possibility of a new 
ground-launched cruise missile in Europe, but a broader 
challenge to European security. So many of the things that I 
outlined are part of a response to broader Russian behavior, 
including the INF violation.
    Mr. Rogers. You see, that is my fear: is that this set of 
responses that have been prepared a year ago for consideration 
are now going to just blend into the new challenges that we 
have to face. And we are going to get no action on the 
violations of the INF Treaty. That is a longstanding violation 
that needs an appropriate response by this Nation, and it 
should not be impeded or blended into any other concerns that 
we are having with Russia's new activity.
    Let me ask this, Ms. Gottemoeller, is it in America's 
interest to continue to unilaterally comply with the INF and 
these other treaties when Russia is not doing so?
    Secretary Gottemoeller. Sir, we judge this treaty to be in 
our national security interest, and I should say, sir, that 
this is not a bilateral treaty. All of the successor states of 
the Soviet Union are also signatories of this treaty. So it is 
a significant treaty sustaining stability in Eurasia. We 
judge--and our partners and allies in Asia and in Europe--judge 
it to be in their national security interests as well. So I 
will say that--and by the way, we judge that Russia in some 
ways has had itself brought up short by our calling them out on 
this violation of the treaty.
    Mr. Rogers. I would love to know how.
    Secretary Gottemoeller. Well, they have been saying quite 
regularly and publicly that they are in compliance with the INF 
Treaty, which we don't buy, but also that they are not 
preparing to withdraw from the treaty, which I think is a good 
thing because it allows us to continue to drive forward 
pursuing them diplomatically as well as with other responses 
and countermeasures.
    Mr. Rogers. I don't know why they would want to withdraw. 
They are not having to comply with it anyway. They don't have 
any pressure on them. We are the only ones that are in 
compliance, and I just think it is foolhardy.
    But, with that, I will stop and turn to Chairman Poe.
    Mr. Poe. I agree with the chairman's comments about we are 
the only ones complying.
    Let's talk about the specific types of missiles in a 
broader scale. The United States and Russia and the former 
Soviet Republics have agreed to limit the number of missiles. 
Is that correct?
    Secretary Gottemoeller. Yes, that is.
    Mr. Poe. However, there are other countries that are 
pursuing these very specific types of missiles, such as Iran, 
Pakistan, North Korea, China, possibly. So, to your knowledge, 
either one of you, are those four countries and maybe others 
pursuing the development of these very types of missiles?
    Secretary Gottemoeller. It is common knowledge, sir, and 
indeed the Russians have said publicly that there are other 
countries developing intermediate-range nuclear and ballistic 
and cruise missiles. So they do talk about that publicly as 
being a reason why they have a debate going on in the Russian 
Federation today about the treaty.
    Mr. Poe. It is not a gotcha question. I am just looking at 
the global situation. The United States has said, we are going 
to do this. We are going to limit the number of missiles we 
have. We are working with the Russians and the former Soviet 
Republics. We all agree, we are going to limit, but out there 
in the world, you have got probably some rogue countries, like 
North Korea, Iran, Pakistan, and then you have the Chinese who 
are not bound by this treaty or any other treaty to limit these 
types of missiles. Is that a concern of the United States?
    Secretary Gottemoeller. Let me recollect for just a moment, 
and then I will turn to Mr. McKeon for what he would like to 
add. But say for just a moment that it is useful to remember 
the reason we entered into this treaty in the first place back 
in 1988. That is that these types of missiles represent very 
short flight time to target. And, therefore, they do pose a 
threat of short-warning attacks on important targets. That is a 
very great concern for our allies in both Europe and Asia, and 
for that reason, we continue to believe that it is important to 
sustain this ban on the treaty with regard to the Russian 
Federation.
    Now, I will note that we have other means of responding to 
intermediate-range nuclear missiles being developed elsewhere 
or conventional missiles, for that matter, and I will turn to 
Mr. McKeon now.
    Mr. Poe. Well, I don't know that I understood your answer. 
Does that concern us that these types of missiles--North Korea 
could send them to South Korea. Pakistan could send them to 
India. China could send them to Russia. I mean, there are all 
different scenarios of the short-range capability of these 
missiles. Does that fact alone concern us as a nation? Mr. 
McKeon, you can answer it.
    Mr. McKeon. Mr. Chairman, if I could first address part of 
your question which is, the INF Treaty only bans a type of 
missile, a ground-launched cruise missile and associated 
launcher. It doesn't ban a number of other types of missiles. 
And we have an ample supply of sea-launched and air-launched 
conventional cruise missiles in our inventory. So we are not 
limited in any respect from those capabilities.
    As Under Secretary Gottemoeller said, Iran has a missile 
program which we are quite concerned about, medium-range 
program that they have engaged some testing and they have 
ambition for a longer-range system. That is part of the reason 
for the European Phased Adaptive Approach to missile defense in 
Europe, which is progressing. We are concerned about North 
Korea's missile program. There is no question about that. It is 
why we made some of the investments we have made in the 
homeland missile defense in the last few years.
    Mr. Poe. I am not suggesting that we should get out of the 
treaty. I am just suggesting that we are bound by a treaty to 
limit certain types of missiles. Russia is the only other 
country and the former Soviet Republics are the only other 
entities that are bound by this. Other nations are not. That 
was my question. And does that concern us as a nation?
    Mr. McKeon. Sir, as a matter of our ability to protect the 
United States and our allies, as I noted in the statement, the 
Russian capability does pose a threat, but it continues to be 
our view in the Department that we have sufficient capability 
to meet our defense requirements at present.
    Mr. Poe. How about our allies like South Korea?
    Mr. McKeon. Our work with our allies in South Korea is an 
ongoing, continuing project. They are doing well in investing. 
We are having conversations with them about certain 
capabilities which--and they are worried more about short-range 
missiles, not any medium-range missiles that exist, and 
wouldn't, even if this treaty applied to the Koreans, wouldn't 
affect the short-range system.
    Mr. Rogers. The Chair now recognizes Mr. Cooper for any 
questions he may have.
    Mr. Cooper. Thank you, Mr. Chairman.
    Ms. Gottemoeller, I believe in your testimony you said that 
there was a 5-year lapse in reporting that the State Department 
had to Congress. There were no reports between 2005 and 2010, 
but then reporting was resumed.
    Secretary Gottemoeller. Yes, sir. That is correct. I will 
underscore that the so-called annual compliance report is an 
interagency effort. It is not just the Department of State that 
carries it out, although the Department of State is responsible 
for leading the effort. But there was a period between 2005 and 
2010 when it was not published on an annual basis.
    Mr. Cooper. But since 2010, the reports have been made 
annually.
    Secretary Gottemoeller. Yes, that is correct.
    Mr. Cooper. The Intermediate Nuclear Force Treaty is of 
primary benefit to our allies, for example, in NATO and in 
Asia. What is their reaction from your diplomatic experience? 
Do they want us to stay members of the treaty? Are they urging 
Russian compliance? What is their general attitude?
    Secretary Gottemoeller. Sir, they have been very keen to 
ensure that the INF Treaty remains in force. They have been 
very keen to see Russia reenter into full compliance with the 
INF Treaty, and they have really been very eager to work with 
us in this regard.
    Mr. Cooper. Can you refresh my memory, since you have been 
on duty at the State Department, how many times you have 
briefed Congress or informed us of what is going on in this 
area? Because I think some of my colleagues have the mistaken 
impression that we have been uninformed on these issues. And I 
think it is a number of times. Could you refresh my memory on 
that?
    Secretary Gottemoeller. Sir, we went back and looked it 
over. In my experience, we have not briefed any issue more than 
we have briefed this particular issue, and it is not only me 
alone, but a number of colleagues at both the political and 
expert level, and the number of briefings, hearings, and 
meetings amounts to about 60.
    Mr. Cooper. Sixty. Like six-zero?
    Secretary Gottemoeller. Correct.
    Mr. Cooper. That is quite a number. And there are many 
disturbing Russian activities, as my colleagues have pointed 
out, so for this issue to have received disproportionate 
attention would seem to indicate that Ukraine, Syria, Crimea, 
other issues, such as Russian military doctrine talking about 
escalatory dominance, the preemptive use of nuclear weapons, 
that would be a topic nuclear related that we should perhaps 
give as much attention to as this.
    Secretary Gottemoeller. Sir, there are many troubling 
issues with the Russian Federation right now. And this is among 
a number of very troubling issues. I will only say that.
    Mr. Cooper. I thank you.
    Mr. Chairman, I yield back the balance of my time. I look 
forward to the classified session.
    Mr. Rogers. I thank the gentleman. I would agree this issue 
has received a lot of talk. Unfortunately, it has received no 
action.
    The Chair now recognizes Mr. Keating for any questions he 
may have.
    Mr. Keating. Thank you, Mr. Chairman.
    I am curious how much you could comment on the fact that, 
in my view, Russia has an enormous stockpile of strategic and 
other nuclear weapons already, and I am just trying to think of 
a real good reason why this is so strategically important to 
them. I am just curious what your thinking might be. What are 
Russia's real gains doing this, given their stockpile and the 
other assets that they have at their disposal already?
    Secretary Gottemoeller. It is a very good point, Mr. 
Keating, that all of the potential targets around the Eurasian 
periphery for intermediate-range, either cruise or ballistic 
systems, could be handled by their central strategic forces. 
The Russians have also been developing very capable cruise 
missiles, both air-launched and sea-launched. So to be honest 
with you, sir, we are puzzled as to why they think they need a 
ground-launched cruise missile that is in violation of this 
important treaty because we see they have, in our view, 
adequate capabilities to cover these threats with other systems 
at their disposal and that are entirely in accord with the INF 
Treaty.
    Mr. Keating. Yeah, do you see any, you know, in terms of 
Asia, in terms of Japan, South Korea, China, are they worried 
at all that, you know, those countries are advancing somehow 
and getting a strategic edge? Is that part of what their 
thinking might be? I know you are asking to get yourself inside 
of Putin's head. We have had many hearings trying to do that 
with little success.
    Secretary Gottemoeller. I can only say, sir, following on 
my earlier answer, Mr. Putin himself said in public last August 
that he is concerned about the emergence of intermediate-range 
systems--missile systems in China, in India, and Pakistan, and 
in Iran. So, you know, I understand that there is that concern 
that has been perhaps present in the Kremlin, in Moscow, but I 
am only really speculating and based on what he had to say 
publicly.
    Mr. Keating. And then it is very tricky especially at a 
hearing dealing with verification issues. But it is clear that 
the evidence is there. They can deny it and then seek more 
information, and in doing so, we might be giving our sources 
and means of intelligence that we don't want to give to them 
indirectly.
    But, you know, looking at things, has there been discussion 
to set up an Intermediate-Range Nuclear Forces Treaty Special 
Verification Commission [SVC] as provided for in the INF 
Treaty? Has that been a source of discussion?
    Secretary Gottemoeller. Mr. Keating, if we had some inkling 
that the Russians would acknowledge this missile and would 
engage productively in an SVC discussion to try to resolve 
these concerns, we would be happy to convene an SVC session. 
Recognizing the complexities I mentioned earlier, saying this 
is a multilateral treaty with a number of countries who are now 
members of the treaty from across the former Soviet Union, but 
nevertheless, if we had some inkling that it would help, we 
would be delighted to convene an SVC session.
    Mr. Keating. That leads us to the issue of responses, which 
I am afraid is going to really be a subject matter in the 
classified setting.
    So I yield back, Mr. Chairman.
    Secretary Gottemoeller. Thank you.
    Mr. Rogers. The Chair now recognizes the gentleman from 
Nebraska, Mr. Oklahoma--the gentleman from Oklahoma--I have got 
too many people talking to me up here--Mr. Bridenstine. Sorry 
about the Nebraska comment.
    Mr. Bridenstine. Thank you, Mr. Chairman.
    I just had a question. Of course, the INF violation is of 
high importance to everybody here, but I think it is emblematic 
of many larger issues that I think this committee is bringing 
up and I think appropriately so. One is a question that I have 
about the Open Skies Treaty. Admiral Haney, commander of U.S. 
Strategic Command, stated quote: ``The treaty has become a 
critical component of Russia's intelligence collection 
capability directed at the United States. In addition to 
overflying military installations, Russian Open Skies flights 
can overfly and collect on DOD and national critical 
infrastructure. The vulnerabilities exposed by exploitation of 
this data and costs of mitigation are increasingly difficult to 
characterize,'' unquote. Do you agree with Admiral Haney that 
Russia can use Open Skies to surveil national critical 
infrastructure? Ms. Gottemoeller.
    Secretary Gottemoeller. Sir, the Open Skies Treaty is 
designed, in fact, for overflight of other territories. We 
overfly the Russian Federation in the same way. In fact, we 
find it quite useful to overfly their rail lines, for example. 
I wanted to stress that one of the advantages of the Open Skies 
Treaty is that information, imagery that is taken is shared 
openly among all of the treaty parties. So one of the 
advantages with the Open Skies Treaty is that we know exactly 
what the Russians are imaging because they must share the 
imagery with us. So that has an advantage over the so-called 
national technical means of the Russian Federation, where we 
are not sure exactly what they are imaging.
    Mr. Bridenstine. So are they imaging national critical 
infrastructure that has nothing to do with defense?
    Secretary Gottemoeller. What I can say is, based on, again, 
the Open Skies Treaty regime is producing imagery that is open 
to all, and they have imaged a number of sites around the 
country.
    Mr. Bridenstine. Does possible surveillance of U.S. 
national critical infrastructure fit with Russia's warfighting 
doctrine?
    Secretary Gottemoeller. Well, sir, I would say that under 
the Open Skies Treaty, we are all basically opening up our 
territory so that the other countries can have a chance to 
overfly and observe, you know, what is going on in the country. 
That was the original idea behind President Eisenhower's 
proposal of the treaty back in the late 1950s, that it would 
permit predictability and confidence-building among all the 
parties to the treaty. So it has been very valuable from that 
perspective.
    Mr. Bridenstine. So a lot of technological advancements 
have happened since Eisenhower was President. Will the 
administration permit Russia to fly over the United States with 
a new advanced digital electro-optical sensor?
    Secretary Gottemoeller. Well, sir, the digital sensors that 
are permitted under the Open Skies Treaty are permitted to all 
parties to the treaty. So----
    Mr. Bridenstine. So will the administration permit Russia 
to fly over the United States with a new advanced digital 
electro-optical sensor?
    Secretary Gottemoeller. As I said, sir, digital sensors are 
permitted to all treaty parties. Not only to Russia----
    Mr. Bridenstine. So the answer is yes?
    Secretary Gottemoeller [continuing]. The United States and 
our European allies and partners; to all treaty parties.
    Mr. Bridenstine. Would information on U.S. national 
critical infrastructure facilitate targeting of that 
infrastructure with a Russian cruise missile, for example?
    Secretary Gottemoeller. I think it is worthwhile 
considering, sir, in this context what increment of information 
the Russia Federation receives from the Open Skies Treaty to 
all of the other sources of information that they have, 
including their national----
    Mr. Bridenstine. So you are suggesting that maybe we don't 
need it anymore?
    Secretary Gottemoeller. No, sir, I am not. I am 
suggesting----
    Mr. Bridenstine. But it is not of value?
    Secretary Gottemoeller. I am suggesting that you need to 
look at the incremental value of the treaty in particular 
settings. I can say it has been of enormous value over Eastern 
Ukraine, in that setting in this current crisis. And it is 
important again to bear in mind the importance that our allies 
and partners place upon this treaty and to make a good 
calculation of what particular risks predictability and 
openness have for our national security. We judge that this 
treaty does not pose such risks to our national security.
    Mr. Bridenstine. Regarding our allies that you mentioned, 
to the extent that allies value the imagery that they collect 
from Open Skies, has the administration assessed what 
commercial imagery the United States could provide to allies 
without exposing us to the risk of Russian aircraft with 
Russian sensors being allowed to overfly the United States? 
What other could we provide our allies using other sources, 
other methods to our allies that do not include us having to 
give up overflight rights of the United States?
    Secretary Gottemoeller. Well, I think it is a good point, 
sir, to underscore that a lot is available on commercial 
imagery now to everyone--every country around the world, 
whether it is the Russian Federation, or our allies and 
partners. What is valuable, again, about the Open Skies Treaty, 
is that every image is taken by any plane flying, by any party 
over any territory, is that all parties have it available to 
them. And, for that reason, we know exactly what is being 
gained by overflights of our territory.
    Mr. Bridenstine. Last question in my last few seconds. Have 
you asked the National Geospatial-Intelligence Agency for their 
analysis on this?
    Secretary Gottemoeller. Sir, again, I think this is the 
kind of discussion that would be good to have if you wish to 
pursue it in our closed session.
    Mr. Bridenstine. Roger.
    Thank you, Mr. Chairman.
    Mr. Rogers. I thank the gentleman.
    The Chair now recognizes the gentleman from California, Mr. 
Garamendi, for 5 minutes.
    Mr. Garamendi. Sixty times we have gone through this, and 
still I am not sure we really recognize the long history of 
these treaties, compliance and noncompliance over a long, long 
period of time, dating back to Ronald Reagan and the question 
of enforcement at that time of the treaties. And so we have 
gone back and forth. There really has been a tit for tat over 
these maybe almost 40 years now. But the bottom line is 
significant progress has been made, a very, very significant 
reduction in nuclear weapons, warheads, as well as delivery 
systems. And while this INF issue is a big one, it is not the 
only one.
    And, Mr. McKeon, I am taken by your testimony, and----
    Mr. McKeon. In a good way, I hope.
    Mr. Garamendi. And, frankly, it is a testimony that 
basically says: We are going to go at this in a very aggressive 
way. And I am looking here at--``Russia does not obtain a 
significant military advantage from its INF violation.'' And 
then you go on to discuss how we can do that. Would you like to 
elaborate a bit on how we can be assured that they do not have 
a significant military advantage from their INF violation?
    Mr. McKeon. Congressman, as I explained in my opening 
statement, and there is a longer statement for the record, we 
are looking at the challenge posed by Russia's military 
modernization and its activities in Europe, including the INF 
violation, as a whole, and looking at the Department as to what 
investments we are already making, what new investments we will 
need to make in the coming years to come to grips with that 
challenge. I would not--I have characterized it as aggressive, 
but prudent planning in response to what we see in terms of 
Russian capability, Russian intent.
    Mr. Garamendi. So this is from your testimony, new unmanned 
systems, new long-range bomber, new long-range standoff cruise 
missile, a number of innovative things, including the B61 bomb 
life-extension programs and on and on. Bottom line, are we at a 
disadvantage vis-a-vis Russia with our military standing today?
    Mr. McKeon. Congressman, we still have the most capable 
military on the planet.
    Mr. Garamendi. And these additional investments would make 
us even more so?
    Mr. McKeon. We need to keep pace with the modernization of 
both Russia and China and militaries of both countries as we 
look around the globe. Those are the two peer or near-peer 
competitors. And as I said, we see capability on the part of 
Russia that is growing as well as the Chinese. It is hard to 
measure President Putin's intent, but we have seen some of his 
actions in Europe, so we can----
    Mr. Garamendi. There is an interesting line in one of your 
testimonies--I will ask this question of both of you--that 
Russia thinks that we have violated the INF. Could you quickly 
tell us why, what Russia thinks we have done that violates it?
    Mr. McKeon. Yes, when we met with them in Moscow a year ago 
September, we went through this in some detail. A couple of 
things that they raised. One, they complained about our armed 
unmanned aerial vehicles, saying that they violate the terms of 
the treaty. Secondly, they claim that our Aegis Ashore 
capability, which we are putting in place under the European 
Phased Adaptive Approach----
    Mr. Garamendi. That would be both Romania and Poland.
    Mr. McKeon. The one in Romania is essentially nearing 
completion, and it will reach operational capability later this 
year, and IOC [initial operational capability] next year, and 
Poland is a couple of years away.
    Mr. Garamendi. That is an anti-missile system. How can that 
be considered to be anything but?
    Mr. McKeon. Their claim, which we have rebutted, is that it 
is simply a Tomahawk cruise missile system set off, that is not 
on a ship but is on land, and can be postured to fire cruise 
missiles in their direction.
    Mr. Garamendi. Are they right?
    Mr. McKeon. They are not right.
    Mr. Garamendi. Why?
    Mr. McKeon. It doesn't have all of the same capabilities 
and fire control system that you see on a Tomahawk setup on a 
Navy ship.
    Mr. Garamendi. How long did it take Ronald Reagan to get 
Russia back in compliance with the ABM [Anti-Ballistic Missile 
Treaty]?
    Mr. McKeon. I believe it was 7 or 8 years. It is some time 
in the mid-1980s where we identified the Krasnoyarsk radar as a 
violation, and it was worked through, to the end of the Reagan 
administration and into the first Bush administration before in 
negotiations. It was before the Soviet Union collapsed. I think 
it was in 1989 and conversations between Secretary Baker and 
then Foreign Minister Shevardnadze where they came to an 
agreement----
    Mr. Garamendi. When did the United States withdraw from the 
ABM Treaty?
    Mr. McKeon. In 2001 or 2002, under President Bush.
    Mr. Garamendi. Was that a unilateral withdrawal?
    Mr. McKeon. It was, yes, sir.
    Mr. Garamendi. Thank you. I yield back.
    Mr. Rogers. The Chair now recognizes Mr. Perry for any 
questions he may have.
    Mr. Perry. Thank you, Mr. Chairman.
    Ms. Gottemoeller, or Secretary Gottemoeller, about a year 
ago, as I recall, we had a very similar hearing to this one.
    Secretary Gottemoeller. Uh-huh.
    Mr. Perry. And you had enumerated, and through the course 
of the conversation, we came to an understanding of the alleged 
violations. And I think, at that time, we kind of realized or 
kind of confirmed that it took years--I mean, the 
administration knew years had passed at that point that the 
violation had been made, but we hadn't been made aware of them. 
And at that time I asked you very specifically what was going 
to be done? What was the panoply of options that might be 
available to us? And I think we reserved that for an executive 
session, but I am wondering at this point, because it is also 
my understanding that by now the Chairman of the Joint Chiefs 
has offered a series of options to remedy the situation to 
bring Russia back into compliance, is there any plan to 
implement any of them? And if there is a plan, is it available 
to be heard in open session?
    Mr. McKeon. Well, Congressman, I have laid out in my 
opening statement our overall response to Russia's behavior, 
including its INF violation. There is more that I can say in 
closed session about some measures we are going to undertake in 
partnership with our NATO allies.
    Mr. Perry. Is there a plan to implement it, though? I know 
there are options, but is there a plan to implement it with a 
timeline? The administration seems to be happy to give our 
adversaries timelines when we will withdraw from countries and 
combat, et cetera. Is there a timeline when Russia can expect 
implementation of this plan?
    Mr. McKeon. Sir, there are a number of capabilities that we 
are investing in, some of which were already on the books, some 
of which will be new or increased in the fiscal year 2017 
budget and built into the Future Years Defense Program. And so 
it will be a continuing effort, as I said, to respond to what 
we see in terms of Russia's growing military modernization and 
its capabilities and its behavior, including its INF violation. 
So there won't be a specific point where you will say, ``Aha, 
everything is in place.'' We are working to counter what we see 
as the threat posed by Russia's activities, including the INF 
violation.
    Mr. Perry. So we don't have milestones that we can measure 
their accountability and their compliance, are there 
milestones?
    Mr. McKeon. Well, sir, I am outlining for you what the 
Department of Defense is going to be doing over the coming year 
and into the future past this administration, assuming these 
plans are carried forward. We continue to have a separate 
conversation with Russia about coming into compliance with the 
treaty. They will see these activities, and they will see them 
in our budget, and they will start to understand, we believe, 
that this response is not making them any more secure.
    Mr. Perry. Well, with all due respect--and I will end my 
questioning--it seems to me that our response years and years 
in the making without any forced compliance, without any 
repercussions to failure of compliance, is just going to lead 
Russia to believe that they can continue to be in noncompliance 
without any accountability. And that is what I have seen. That 
is what I learned a year ago, and it doesn't seem to me that 
much has changed in the year between now and then, with all due 
respect.
    With that, I yield back.
    Mr. Rogers. I thank the gentleman.
    The Chair now recognizes Ms. Kelly for 5 minutes.
    Ms. Kelly. Thank you, Mr. Chair.
    Mr. McKeon, in your assessment, other than the INF Treaty, 
are there any arms control obligations that Russia is not 
complying with or is in violation of treaty agreements with the 
United States?
    Mr. McKeon. Congresswoman, I would probably defer to Under 
Secretary Gottemoeller, who controls the pen on the compliance 
report. The Conventional Forces in Europe [CFE] Treaty is one 
of them. We have concerns, compliance concerns, about other 
treaties, including the Open Skies Treaty.
    Secretary Gottemoeller. Ma'am, I will only add that as far 
as the additional treaties, we have long-standing concerns 
about the Chemical Weapons Convention and the Biological 
Weapons Convention. We cannot confirm Russian compliance with 
those treaties because they have not provided, as we believe, 
full information and data about Soviet-era programs, their past 
programs before the Soviet Union fell apart.
    Nevertheless, they are good treaty partners. In the 
Chemical Weapons Convention, they are continuing to destroy 
tons and tons of Soviet-era chemical weapons and are doing so 
according to an agreed schedule. So--and they are working with 
us in Syria to bring to final conclusion Syria's destruction 
and elimination of its chemical weapons arsenal.
    Ms. Kelly. Where they are not good partners, what are we 
doing about that?
    Secretary Gottemoeller. Where they are not good partners, 
in my world, we are continuing to make sure that they are aware 
that they must come back into compliance with the INF Treaty 
specifically, that that is in their interest as well as for the 
rest of the international community.
    In the case of the CFE Treaty, we actually took 
countermeasures inside the treaty context and ceased 
implementing the treaty with regard to the Russian Federation, 
but, again, the CFE Treaty, the Conventional Forces in Europe 
Treaty, brings a lot of predictability and mutual confidence to 
other partners and signatories of the treaty, especially during 
this period of crisis, not only in Ukraine but in other places 
such as Georgia and so forth. So it is helpful to continue to 
ensure that information is flowing, that inspections take 
place, and notifications of activities are flowing.
    Ms. Kelly. Thank you.
    I yield back.
    Mr. Rogers. The Chair now recognizes the gentleman from 
Arizona, Mr. Franks, for 5 minutes.
    Mr. Franks. Well, thank you, Mr. Chairman.
    Thank you for both for being here.
    Ms. Gottemoeller, I understand that Ambassador Thomas 
Graham has suggested publicly that the administration is 
looking to circumvent the Constitution and allow--or actually 
pursue a prohibition of nuclear testing through a U.N. Security 
Council resolution. I, obviously, would recoil at any security 
council dictating American defense policy.
    Can you assure this committee that the administration is 
not pursuing this idea?
    Secretary Gottemoeller. Sir, I have been in constant battle 
with our NGO [nongovernmental organization] colleagues over 
this issue. We do not agree with this notion.
    Mr. Franks. All right. Well, and I appreciate that. And you 
are assuring me that that is not being pursued?
    Secretary Gottemoeller. Correct.
    Mr. Franks. Okay. That is good. See, answers can happen.
    Knowing that, since the 1996 era, three countries have 
broken the de facto comprehensive nuclear test ban moratorium 
and tested nuclear weapons--that is India and Pakistan in 1998, 
and then North Korea in 2006 and 2009 and again in 2013. Your 
compliance report this year states that each state with a 
testing moratorium complied with it in 2014. So is it--in other 
words, is it correct now to state that no state last year 
conducted a nuclear weapons test that produced a nuclear yield?
    Secretary Gottemoeller. Sir, within this century, the only 
state that has tested nuclear weapons is--in a way that 
produced a nuclear yield--is North Korea, so since the 
beginning of this century.
    Mr. Franks. So are you saying India and Pakistan in 1998, 
that did not occur?
    Secretary Gottemoeller. No, sir. Since 2000, is what I am 
saying.
    Mr. Franks. Oh, I am sorry.
    Secretary Gottemoeller. The only state that has tested to 
nuclear yield is North Korea.
    Mr. Franks. And so no state last year conducted any nuclear 
yield tests or any tests that resulted in any nuclear yield?
    Secretary Gottemoeller. Correct.
    Mr. Franks. All right. Well, listen, that is all the 
questions I have.
    And I thank you, Mr. Chairman. I yield back.
    Mr. Rogers. The Chair now recognizes Mr. Fleming for any 
questions he may have.
    Dr. Fleming. Thank you, Mr. Chairman.
    For both of our panelists today, I would like to ask this 
question. You both mentioned in your testimony that the 
administration continues to reiterate to Russia its need to 
come into compliance with the INF Treaty. Do you have any 
specific details of actions taken by Russia to suggest that 
Russia actually intends to come into compliance with the INF, 
that the administration's urgings are having any effect?
    Secretary Gottemoeller. Sir, what I can say is that the 
Russian Federation claims that it is in full compliance with 
the treaty. It does not acknowledge this violation that we have 
regularly expressed grave concerns to it about, it does not 
acknowledge the missile, the ground-launch cruise missile. So 
it claims it is in compliance with the treaty, number one, and 
it also in that context asserts its commitment to continue for 
the present time to stay in the INF Treaty. And so that is the 
position that we hear from the Russians time and time again.
    Dr. Fleming. I assume you confront them with the actual 
data. How do they respond when you actually show it to them?
    Secretary Gottemoeller. I have told them, you know, that 
they have received from us sufficient information to be able to 
determine what missile we are talking about, but they claim 
that they cannot tell what missile we are talking about.
    Dr. Fleming. Do you feel like their unwillingness to comply 
with INF may actually get worse; they may actually continue in 
the wrong direction?
    Secretary Gottemoeller. Well, one, I think, benefit of 
calling them out on their violation of the INF Treaty is that 
they are aware that the world is watching, watching very 
closely, and that we are watching very closely their continued 
behavior with regard to the Intermediate-Range Nuclear Forces 
Treaty, so I do believe that it is having an effect upon them.
    Dr. Fleming. Has the U.S. implemented any economic 
sanctions because of their failure to comply with INF?
    Secretary Gottemoeller. We have been working with our 
allies to consider economic sanctions. And you are aware, sir, 
that we have imposed a wide range of economic sanctions in 
complete agreement with the European Union [EU] to respond to 
their incursion into Crimea, and that, I think, has been 
extraordinarily effective. We continue to consider economic 
measures with regard to the INF Treaty, but up to this point, 
we have not pursued it.
    Dr. Fleming. When you say ``effective,'' what is the metric 
for that? How do you know that is being effective?
    Secretary Gottemoeller. Well, I think effective is, in the 
case of economic sanctions, it is clear that it is having an 
economic impact.
    Dr. Fleming. It is hurting their economy, you are saying?
    Secretary Gottemoeller. Right. Right.
    Dr. Fleming. Is that mostly in the oil and gas type of 
venue or is----
    Secretary Gottemoeller. Well, when we look across the range 
of sanctions, and this is a topic that if you are interested in 
deserves a separate briefing, but when we are looking across 
the range of sanctions undertaken with the EU, it is not only 
the oil and gas sector. It is manufacturing. It is across the 
board, really.
    Dr. Fleming. Mr. McKeon, you mentioned in a hearing last 
year that the DOD [Department of Defense] is examining a range 
of military options to respond to Russia's INF violations. 
Congress has moved this process along. This year's NDAA just 
signed by the President last week included language to require 
the DOD to make plans of, again, development of the kind of 
systems that you outlined in your testimony. So what can you 
tell me about that?
    Mr. McKeon. Well, in terms of the report, Congressman, we 
are aware of the reporting requirement and will endeavor to 
meet it on time, although I will confess I know we are not 
always the best at being timely with our reporting because we 
have a lot of reporting requirements.
    In terms of capabilities that we are looking at, I outlined 
those in some detail in my statement, and I will go into a 
little bit more in closed session on some ideas that we are 
going to pursue in Europe.
    Dr. Fleming. Okay. So if the administration's urgings to 
Russia regarding INF compliance are not changing Russian 
behavior, we see that it may have some effect on their economy, 
but not their behavior, and in fact, Russia's behavior may be 
moving in the opposite direction. Why is the administration 
delaying other economic and military lines of effort that would 
actually have an effect on the diplomatic line of effort? For 
either one or both.
    Mr. McKeon. Well, sir, I don't think we are delaying 
implementation of military measures, and we can talk about that 
in the closed session. These investments we are--some of these 
investments we are going to make, we weren't planning to make 2 
or 3 years ago. They are in response not just to the INF 
violation but other Russian activity.
    In terms of economic measures, I would defer to Rose on 
that, but if we continue down this course and the measures we 
are taking do not lead to Russian compliance, we can always 
assess whether to take other measures.
    Secretary Gottemoeller. If I may just very quickly comment, 
sir. In addition to the points that Mr. McKeon has made about 
denying Russia any significant military advantage if it 
persists in its violation of the INF Treaty, so that is at the 
top of the list, but nevertheless, I do believe that it is 
important to back diplomacy up with strong action in these 
other areas.
    Dr. Fleming. Okay. Thank you.
    Mr. Rogers. Mr. McKeon, I want to clarify something--or get 
clarification on something you just talked about. You are not 
just required to present a report. Aren't you supposed to start 
carrying out the responses under 1243?
    Mr. McKeon. Mr. Chairman, I will defer to you on what your 
language says because I have not studied it closely. So I will 
get back and read it when I get back to the Department. I am 
generally aware of a list of requirements that you have put 
into the new NDAA, but I will confess I have not read them 
closely.
    Mr. Rogers. I thank you. The Chair now recognizes Mr. 
Turner for any questions he may have for 5 minutes.
    Mr. Turner. Thank you, Mr. Chairman.
    Ms. Gottemoeller, you were very, very prepared with the 
question from the ranking member as to how many times you have 
been here, and I appreciate the quantification of the number of 
times that you and people from your office, as you said, have 
made themselves available. I think what you understand is it is 
not how many times you appear before us; it is what you say. 
And on the ``what you say,'' there are two categories that are 
important to us. One, action. That is what most of our 
questions to both of you today have been: What are we doing, 
and what is going to happen as a result of the change in the 
circumstances in the world or what our non-allies, what Russia 
is doing? The second is information. It is, what do you tell 
us? If you come before us and you are not telling us the whole 
story, then it doesn't matter if you are here 170 times. If we 
don't get the whole story, it is a worthless exchange of 
dialogue between us.
    And we all know that there is considerable consternation 
between this administration and this committee on the fact that 
the administration knew in intelligence information of Russia's 
violation in 2008 of the INF Treaty and waited until 2014 to 
announce the violation publicly. And as we all know, as we were 
going through the critical negotiations of the New START 
Treaty, that type of information was incredibly important. So, 
action and information.
    So my first question is about information. Ms. 
Gottemoeller, Russia recently has admitted to the disclosure of 
the existence of a nuclear-armed, nuclear-powered undersea 
delivery system. It is not really necessarily a missile because 
it is not coming off of a sub or of a ship. It is its own 
undersea delivery system. It is not an ICBM [intercontinental 
ballistic missile] because it is not in the air, but it is in 
effect the same thing; it is only traveling under the water.
    So back to our two concerns with this dialogue. Ms. 
Gottemoeller, were you aware of the existence of this system 
when you were in negotiations with the New START Treaty? 
<dagger>
---------------------------------------------------------------------------
    <dagger> The Department of State witness at this hearing 
misunderstood the nature of the question and later provided a detailed 
response to the closed hearing. The administration, through the work of 
the Intelligence Community, regularly provided Congress assessments of 
what the U.S. knows and does not know on this topic. The Director of 
National Intelligence has a responsibility to protect sources and 
methods while being as transparent as possible. The public's interest 
is considered to the maximum extent possible while protecting 
information as necessary, protecting the safety of those who work in or 
with the IC, or otherwise protecting national security.
---------------------------------------------------------------------------
    Secretary Gottemoeller. Sir, if I may, I would just like to 
say the answer to that question is an unequivocal no, but if 
you want to get into talking about this system in more detail, 
it is very good to do so in our closed session, and we will 
be----
    Mr. Turner. Well, I would be glad to do it in closed 
session, but one of the great aspects of having this 
conversation with you--because it is always so much more 
convenient for us to talk behind closed doors because the 
accountability obviously isn't as difficult for you--is that 
this is something that is openly being discussed. I didn't hear 
of this from a classified briefing from you where I am now 
asking you a question about it. It is in the news, and Russia 
is admitting or is apparently, you know, indicating that it has 
been developing the system.
    So I want to ask you, though, if you say unequivocally no--
that means you didn't know--if you didn't know, should it have 
been included in the treaty? I mean, is this system a problem 
when you look at the overall balance that you were trying to 
accomplish in the New START Treaty?
    Secretary Gottemoeller. Well, I think, sir, that it will 
have to be, you know, considered in the context of where the 
Russians go with the system.
    Mr. Turner. Well, their intention is to go here, ma'am. I 
mean, let's be clear. Right?
    Secretary Gottemoeller. No.
    Mr. Turner. I mean, it is not--they are not going from, you 
know, one area of Russia to another. Their intent is to go 
here.
    Secretary Gottemoeller. I know we are concerned about it, 
of course we are concerned about it as a threat to the United 
States, but if it turns into a system that is widely put into 
operational deployment, you know, that is----
    Mr. Turner. Widely. One would probably be sufficiently 
troubling, right?
    Secretary Gottemoeller. I think it is a troubling system, 
sir. There is no question about it.
    Mr. Turner. Now we are going to get to the second aspect of 
this communication of the over 60 times that you and your staff 
have been here, is action. It is in the public. It is not like 
no one knows that it is occurring. What have you done? What has 
the State Department done in communicating to Russia concerning 
this system? I mean----
    Secretary Gottemoeller. I can assure you, sir, that I never 
hesitate to raise issues of concern, including----
    Mr. Turner. I didn't ask you if you hesitate.
    Secretary Gottemoeller [continuing]. Including about this--
--
    Mr. Turner. I asked you, what did you do?
    Secretary Gottemoeller [continuing]. Including about this 
system with my Russian counterparts.
    Mr. Turner. You have? What did you do? Did you----
    Secretary Gottemoeller. I never hesitate to raise issues of 
concern.
    Mr. Turner. What does ``raise'' mean? I mean, you are this, 
you know, Under Secretary of State for International Security. 
``Hey, I saw this in the news''?
    Secretary Gottemoeller. It makes it clear to them that it 
is a concern, an official concern of the United States of 
America.
    Mr. Turner. I think you probably didn't need to tell them 
that. I think they probably understood it was a concern.
    Did you tell them anything else about what our official 
policy was, what action the United States might be taking, what 
consequences would occur as a result of this being a threat to 
the United States?
    Secretary Gottemoeller. I will be very happy to talk to you 
more about this, sir, in closed----
    Mr. Turner. I am looking forward to that.
    Secretary Gottemoeller. Thank you.
    Mr. Rogers. The Chair now recognizes the gentleman from 
Colorado, Mr. Lamborn, for 5 minutes.
    Mr. Lamborn. Thank you, Mr. Chairman.
    And thank both the chairmen for having this hearing.
    Thank you both for being here.
    I want to dwell a little bit more on what we knew about the 
INF violating the--excuse me, Russia violating the INF Treaty 
before 2011, that you said just now that that is when you knew 
for sure that they were in violation, but you had suspicions 
before 2011, didn't you?
    Secretary Gottemoeller. No, sir. As I said, the system 
could be sea-launched, air-launched. And it is perhaps 
worthwhile to say that, starting in 2011, we had the 
opportunity to talk to the Hill about it, but we have never--we 
have never ever kept any information back about this system at 
all, and I want to assure these two committees of that matter. 
We have been very upfront and come up here repeatedly to inform 
you when we knew about this system being not in compliance with 
the INF Treaty.
    Mr. Lamborn. When did you first have suspicions?
    Secretary Gottemoeller. Sir, I have said it was the end of 
2011 when we first had indications that this missile was a 
missile of concern.
    Mr. Lamborn. I am not sure that is my recollection of what 
we have talked about in earlier hearings. You haven't--you 
didn't even have suspicions before 2011?
    Secretary Gottemoeller. No, sir.
    Mr. Lamborn. Let me visit another subject here. You stated 
recently that the Russians have been pretty good partners over 
the years, frankly, yet you have also said that they, the 
Russians, are cheating or are not in compliance with the INF 
Treaty, the Chemical Weapons Convention, the Biological Weapons 
Convention, the Treaty on Conventional Forces in Europe, the 
Open Skies Treaty, the Budapest Memorandum, and other 
agreements. So with that track record, how can you say they 
have been, frankly, pretty good partners over the years?
    Secretary Gottemoeller. Sir, I think it makes sense to look 
at specifically where the partnership has been effective. The 
list that you just read out is attached to certain nuances, 
which is very important to understand. They are in outright 
violation of the INF Treaty and the Conventional Forces in 
Europe Treaty. In certain areas, like the Open Skies Treaty, we 
have what we call compliance concerns, and that is natural in 
any treaty environment. There are concerns that come up in its 
implementation, and those are discussed in the implementation 
bodies of those treaties. We work to resolve them. And so that 
is why there are some differences here.
    In the case of the Chemical Weapons Convention and the 
Biological Weapons Convention, actually, we have never been 
able to confirm the Soviet-era holdings. They have never 
provided us information on that. But it is in that context I 
said that they have been a good partner in the Chemical Weapons 
Convention. They really worked with us to get 1,300 tons of 
chemical weapons out of Syria, which I am very glad are no 
longer in Syria at this moment. We continue to have concerns 
about what Syria is doing with chemical weapons, and we will 
continue to wrestle with that problem. But it is in that 
context that I said the Russians have been a good partner.
    Mr. Lamborn. Well, in view of all those violations, I guess 
we have different definitions of what makes a pretty good 
partner.
    Mr. Chairman, I yield back.
    Mr. Rogers. I thank the gentleman.
    The Chair would point out that we have just been called for 
votes. I apologize. They didn't ask me about when to call them. 
But we will recess temporarily while we go vote, and then 
reconvene immediately after votes in room 2216. We now stand in 
recess.
    [Whereupon, at 4:51 p.m., the subcommittees proceeded in 
closed session.]
      
=======================================================================




                            A P P E N D I X

                            December 1, 2015
      
=======================================================================


              PREPARED STATEMENTS SUBMITTED FOR THE RECORD

                            December 1, 2015

=======================================================================

      
[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
      
   
      
=======================================================================


                   DOCUMENTS SUBMITTED FOR THE RECORD

                            December 1, 2015

=======================================================================

      
[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
      
 
      
=======================================================================


              QUESTIONS SUBMITTED BY MEMBERS POST HEARING

                            December 1, 2015

=======================================================================

      

                   QUESTIONS SUBMITTED BY MR. ROGERS

    Mr. Rogers. On what date did Secretary Kerry last discuss Russian 
non-compliance with the INF Treaty with his Russian counterpart?
    Secretary Gottemoeller. Secretary Kerry has discussed Russian non-
compliance with the INF Treaty with his Russian counterpart on several 
occasions. For specifics with regards to dates, I would refer to you 
the relevant portions of the Report on Noncompliance by the Russian 
Federation with its Obligations under the INF Treaty, required by 
Congress in response to Subsection 10(c) of the Ukraine Freedom Support 
Act of 2014 (P.L. 113-272), where this information is provided in 
detail.
    Mr. Rogers. Is there a Circular 175 that has been approved covering 
discussions or negotiations with Pakistan on nuclear weapons or related 
matters?
    If so, as of what date was it approved?
    Secretary Gottemoeller. The Administration is not pursuing 
negotiations on a legally-binding international agreement with Pakistan 
on nuclear weapons or related matters and has accordingly not engaged 
in the Circular 175 process for authorizing the negotiation or 
conclusion of an international agreement.
    Mr. Rogers. Does the administration assess Russia plans to remain 
in the INF Treaty?
    Secretary Gottemoeller. The Administration believes that it is in 
the mutual security interests of all parties to the INF Treaty that 
Russia and the other 11 successor States to the Soviet Union remain 
parties to the Treaty and comply with their obligations. All levels of 
the Russian government have repeatedly reaffirmed Russia's commitment 
to the INF Treaty.
    Mr. Rogers. Is the ground-launched cruise missile (GLCM) the only 
system under development or in some stage of planning that could 
violate the INF?
    If not, how many systems are you personally aware of?
    How many systems do they (the Russians) have to be developing or 
plan to develop to suggest they don't plan to return to compliance with 
the INF treaty?
    Secretary Gottemoeller. There is an interagency process in place 
for assessing Parties' compliance with regard to systems under 
development or in some stage of planning that may have INF Treaty 
implications. This process involves the Intelligence Community's 
reporting on potential systems of concern, discussions and 
determinations by the interagency Verification and Compliance Analysis 
Working Group, and, ultimately reporting of compliance findings in the 
Annual Report to Congress on Adherence to and Compliance with Arms 
Control, Nonproliferation, and Disarmament Agreements and Commitments. 
I would refer to you the annual Compliance Report for questions on 
violations.
    Mr. Rogers. Please list your meetings with Russian officials to 
resolve it compliance with the Chemical Weapons Convention (CWC), 
Biological Weapons Convention (BWC), and Presidential Nuclear 
Initiatives (PNI).
    Secretary Gottemoeller. As the former Assistant Secretary for the 
Bureau of Arms Control, Verification and Compliance (AVC) and now as 
Undersecretary of State for Arms Control and International Security, it 
continues to be a top priority of mine and of the Administration to 
regularly consult with Russia on matters pertaining to compliance with 
arms control obligations and commitments. During my tenure as the 
Assistant Secretary for AVC, and since 2009, it has been my practice to 
directly engage the Russian Ambassador to the United States on matters 
of compliance, particularly in connection with the public release of 
the annual compliance report. At those meetings, I discussed U.S. 
concerns regarding Russia's compliance on a number of treaties, 
including the Chemical Weapons Convention (CWC) and the Biological 
Weapons Convention (BWC) and extended the opportunity for expert level 
discussions to resolve them. The United States has a consistent record 
of pursuing concerns with Russia regarding its compliance with the CWC 
and BWC, as both Treaties contribute to international stability and 
security. Since entry into force of the CWC in 1997, we have inquired 
and engaged Russia on numerous occasions regarding its obligations 
under the CWC. On matters regarding the BWC, U.S. experts at my 
direction engaged their Russian counterparts in November at the UN in 
Geneva on issues specifically related to the implementation of the BWC 
and on identifying areas of commonality to advance our shared 
interests. Nevertheless, Russia has declined to respond positively or 
constructively to U.S. efforts to cooperate in resolving CWC and BWC 
compliance concerns. We will, however, continue to pursue opportunities 
for engagement. We have not held any meetings with Russian officials 
aimed specifically at resolving questions relating to Russia's 
adherence to the Presidential Nuclear Initiatives (PNIs). The PNIs were 
non-legally binding, unilateral commitments made by the United States 
and Russian Federation. These commitments did not provide for a 
verification regime to confirm that either side has fully implemented 
their pledges.
    Mr. Rogers. Under what circumstances is Russia, under the New START 
treaty, required to exhibit a new type of missile to the United States?
    Does the RS-26 Rubezh meet that standard?
    As of what date did it meet that standard?
    Have State Department or other employees of the United States 
government asked Russia to exhibit it to the United States?
    On what date? What was Russia's response?
    Secretary Gottemoeller. Paragraph 2 of Section VIII of Part Five of 
the Protocol to the New START Treaty provides that ``[e]ach Party shall 
conduct exhibitions, and shall have the right to take part in the 
exhibitions conducted by the other Party, in order to demonstrate the 
distinguishing features and to confirm technical characteristics of 
each new type, variant, or version of an ICBM, SLBM, heavy bomber 
equipped for nuclear armaments, and, as provided for in Part Two of the 
Protocol, an ICBM launcher, in the periods of time specified in 
corresponding notifications.'' These exhibition requirements apply to 
the RS-26 Rubezh as a new type of ICBM. The Russian Ministry of has 
made public statements concerning an expected exhibition of the RS-26 
ICBM in 2016.
    Mr. Rogers. What are the economic activities of the Russian firms 
Novator and Titan in the U.S.?
    In terms of dollars, how much economic activity do they conduct in 
the U.S. each year?
    Are they banned today from economic activity in the U.S. by any 
sanction or other U.S. Government action?
    Secretary Gottemoeller. While OKB Novator and Holding Titan-2 are 
not on the Specially Designated Nationals (SDN) list, they are subject 
to existing U.S. export control policies, including restrictions for 
any high technology defense articles or services for export to Russia, 
such as those announced on April 28, 2014. We are happy to discuss 
further details of U.S. policies in this area in the appropriate 
setting.
    Mr. Rogers. Following up on Mr. Franks's question, is it your 
belief that neither Russia nor China conducted any nuclear test-
activity that produced any--I repeat any--nuclear yield (down to the 
level of even single or double digit tons of yield) since 2000?
    Does the Intelligence Community share this view?
    Secretary Gottemoeller. The U.S. Atomic Energy Detection System has 
not detected any nuclear test by Russia or China since 2000. The Office 
of the Director of National Intelligence would be happy to provide 
further information on the subject as needed.
    Mr. Rogers. The INF Treaty prohibits flight-testing and production 
of ground-launched ballistic and cruise missiles between a certain 
range. It does not prohibit deployment, right?
    We know from the administration that Russia has flight-tested a 
ground-launched cruise missile, but has Russia also produced any 
quantity of these systems? How many?
    Do you agree that if Russia was training any of its forces in the 
use of this system, that would suggest that Russia intends to deploy 
it?
    Does the administration have any reason to believe any of these 
systems have achieved an initial operating capability?
    Secretary Gottemoeller. The INF Treaty prohibits the possession, 
production, and flight-testing of ground-launched ballistic and cruise 
missiles with a range between 500 and 5,500 kilometers. The Article-by-
Article Analysis for the Article VI of the INF Treaty noted that a 
flight-test ban is a natural element in any treaty that eliminates an 
entire class of missile systems and serves to strengthen the production 
ban, as any covertly produced missile could not be adequately flight 
tested without likely U.S. detection. The analysis further noted that 
without realistic testing, a Party's confidence in the operational 
capability of any covertly produced missile system would be degraded. 
The INF Treaty prohibits the possession of missile systems whether 
deployed or non-deployed. In regards to your specific questions 
pertaining to the Russian ground-launched cruise missile, I would refer 
to you the relevant portions of the Report on Noncompliance by the 
Russian Federation with its Obligations under the INF Treaty, submitted 
to Congress in accordance with Subsection 10(c) of the Ukraine Freedom 
Support Act of 2014 (P.L. 113-272).
    Mr. Rogers. The President committed to modernize the U.S. nuclear 
triad, including the LRSO, which is the replacement of our air-launched 
cruise missile, as an element of ratification of the New START treaty, 
did he not? Do you believe there is anything inconsistent with the LRSO 
and the President's Prague Legacy? Do you believe dual-capable cruise 
missiles are destabilizing?
    Secretary Gottemoeller. As certified to the Senate in accordance 
with the New START Treaty Resolution of Advice and Consent to 
Ratification, the President is committed to modernizing U.S. nuclear 
forces, including replacing the air-launched cruise missile with the 
LRSO. The LRSO is not destabilizing and not inconsistent with the 
President's Prague Agenda. In his Prague speech, the President declared 
that ``make no mistake: as long as these weapons exist, the United 
States will maintain a safe, secure, and effective arsenal to deter any 
adversary, and guarantee that defense to our allies.'' The LRSO cruise 
missile is a key element of our plan for ensuring our nuclear deterrent 
remains effective.
    Mr. Rogers. Can you tell me, during the period the JCPOA was being 
reviewed by the Congress, did the administration or any administration 
official receive any notification from or gain from any other means 
reason to believe that any other country in the region would seek a 
right to enrich uranium or possibly renegotiate its 123 Agreement with 
the United States? If so, were you one of those officials?
    Secretary Gottemoeller. I did not have any discussions with 
countries in the region regarding a right to enrich uranium or the 
renegotiation of a 123 Agreement during this time period. At your 
request, the Department of State would be happy to provide a classified 
briefing on any relevant conversations with other State Department 
officials that occurred during that time.
    Mr. Rogers. On what date did the Secretary of Defense last discuss 
Russian non-compliance with the INF treaty with his Russian 
counterpart?
    Mr. McKeon. Then-Secretary of Defense Hagel discussed Russian non-
compliance with the INF Treaty with Defense Minister Shoygu on August 
15, 2014, during a phone call that focused on events in Ukraine. As a 
result of Russia's illegal annexation of Crimea, the Department of 
Defense suspended military-to-military cooperation with the Russian 
Ministry of Defense and curtailed engagement to a bare minimum. In 
keeping with this, in September 2015, Secretary Carter spoke with 
Minister Shoygu to emphasize the importance of the safety for U.S. 
personnel in light of Russian air operations in Syria. No other topics 
were discussed during this phone call.
    Mr. Rogers. Does the administration assess Russia plans to remain 
in the INF Treaty?
    Mr. McKeon. Russian officials have repeatedly and publicly affirmed 
Russia's commitment to the INF Treaty, although it is uncertain at this 
point whether Russia will take the necessary steps to make good on that 
commitment. The Administration believes that it is in the mutual 
security interests of all parties to the INF Treaty that Russia and the 
other 11 successor States to the Soviet Union remain parties to the 
Treaty and comply with their obligations.
    Mr. Rogers. Is the Russian ground-launched cruise missile (GLCM) 
the only system under development or in some stage of planning that 
could violate the INF?
    If not, how many systems are you personally aware of?
    How many systems do they (the Russians) have to be developing or 
plan to develop to suggest they don't plan to return to compliance with 
the INF Treaty?
    Mr. McKeon. We would be happy to provide a classified briefing on 
this subject. I would additionally refer you to the Annual Report to 
Congress on Adherence to and Compliance With Arms Control, 
Nonproliferation, and Disarmament Agreements and Commitments, which 
reports on compliance questions and compliance findings.
    Mr. Rogers. Please take a look at Ms. Gottemoeller's answer to Mr. 
Keating's question: Is there a military benefit to Russia from its 
violation of the INF Treaty?
    Does it help fill what Russia believes is a capability gap or 
targeting gap?
    Mr. McKeon. DOD's core objective remains the same: to ensure that 
Russia does not obtain a significant military advantage from its INF 
Treaty violation. Russia may gain some military benefit from its 
violation; however, that gain is limited since the Russian Federation 
already possesses deployed air- and sea-launched intermediate-range 
cruise missiles. Statements made by Russian officials over the last 
decade or more indicate that Russia believes that it has a capability 
gap that can only be filled by fielding missiles currently prohibited 
under the INF Treaty.
    Mr. Rogers. Please describe your understanding of the Department of 
Defense's obligations under section 1243 of the FY 2016 NDAA regarding 
the INF Treaty?
    Mr. McKeon. The Secretary of the Defense and the Chairman of the 
Joint Chiefs of Staff are obligated to submit the notifications and 
reports delineated in subparagraphs (c), (d)(5), and (d)(6) of Section 
1243 of the National Defense Authorization Act (NDAA) for FY 2016.
    Section 1243 also obligates the Department of Defense to submit a 
plan for the development of the military capabilities listed in 
subparagraphs (d)(1)(A), (d)(1)(B), and (d)(1)(C) unless the conditions 
of subparagraph (d)(1) have been met. The Secretary of Defense is to 
carry out the development of those capabilities that are recommended by 
the Chairman, using amounts authorized to be appropriated for FY 2016 
by Section 201 of the NDAA for FY 2016.
    Mr. Rogers. Would you please explain why the modernization of the 
LRSO is a key component of the President's program to modernize our 
nuclear forces?
    Mr. McKeon. The Long-Range Standoff (LRSO) cruise missile is a key 
element of our plan for ensuring our nuclear deterrent remains 
effective. The LRSO replaces the aging Air-Launched Cruise Missile 
(ALCM), which is our only air-launched standoff nuclear capability and 
which is already decades beyond its planned service life. The LRSO 
strengthens our overall survivable deterrence capabilities and provides 
the President with credible options for signaling U.S. resolve and 
responding across a broad spectrum of crises. The LRSO will also 
provide an important hedge against technical problems in other parts of 
the Triad, and against problems with generating other nuclear forces to 
alert. The LRSO will extend the service life of our current bomber 
force by extending the effective range of stealthy and non-stealthy 
bombers through standoff. Finally, cruise missiles create an extremely 
difficult air defense problem for anyone seeking to negate the air leg 
of our deterrent.
    Mr. Rogers. Why did it take the U.S. a full six years from the time 
of Russia's violation of the INF Treaty in 2008 and three years from 
our determination in 2011 that it was a violation until we notified our 
NATO allies in 2014?
    Mr. McKeon. The United States did not have information in 2008 that 
the Russian Federation was violating the INF Treaty. We have repeatedly 
noted that prior to the ratification in December 2010 of the New START 
Treaty, the Intelligence Community was not aware of any Russian 
activity inconsistent with the INF Treaty. Information regarding this 
system's testing history, the intelligence reporting associated with 
this program, the compliance determinations, and our work with allies 
has been made available to Congress many times through appropriate 
channels. We are happy to again provide a briefing to clarify the 
timeline of the verification regarding Russia's violation.
    Mr. Rogers. It has now been 7 years since Russia first violated the 
INF Treaty. Last year, when we were in this same room, Ms. Gottemoeller 
and Mr. McKeon, you testified that a list of responses was being 
prepared for a principals meeting. Were any of those responses ever 
approved? If so, what is the plan to implement those responses? Will we 
see anything in the administration's fiscal year 2017 budget request? 
Will any of the fiscal year 2016 funds be re-appropriated to implement 
these responses? If not, when can we expect a decision on those 
responses?
    Mr. McKeon. The Department has reviewed a broad range of military 
response options and, with the interagency, considered the effect each 
option could have on either convincing Russian leadership to return to 
compliance with the INF Treaty or on countering the capability of the 
prohibited ground-launched cruise missile (GLCM) system. This 
assessment was conducted at the same time as we began confronting new 
strategic realities in Europe--a Russia that is destabilizing the 
European security order by purporting to annex Crimea and conducting 
illegal activities in eastern Ukraine, a Russia that is actively 
seeking to undermine NATO, and a Russia that is modernizing its 
military capabilities across a range of systems.
    In 2015, the Administration determined that the United States 
needed to consider Russian actions with regard to the INF Treaty in the 
context of its overall aggressive and bellicose behavior that flouts 
international legal norms and destabilizes the European security order. 
Russia is not violating the INF Treaty in isolation from its overall 
aggressive behavior; therefore, the Administration concluded that 
responses cannot focus solely on the INF Treaty.
    U.S. responses to Russia's increased aggressive actions, including 
its violation of the INF Treaty, involve a broad range of efforts--
within the Department, bilaterally with allies and partners, and within 
the NATO Alliance. These responses include increasing posture and 
presence, refocusing planning and shaping of future military activities 
in Europe, and improving defensive measures to neutralize or undercut 
Russia offensive capabilities.
    For example, DOD plans to continue the European Reassurance 
Initiative (ERI), with $789.3 million requested in Fiscal Year (FY) 
2016. Under the ERI, the United States has increased our persistent, 
rotational air, land, and sea presence in the Baltics and in Central 
Europe to reassure Allies and to deter Russian aggression. ERI also 
enables the United States to expand bilateral and multilateral 
exercises in Europe in order to improve interoperability and to 
strengthen U.S. warfighting capability in the face of newer threats 
from Russia. DOD will continue to seek funding for ERI in FY 2017.
                                 ______
                                 
                     QUESTIONS SUBMITTED BY MR. POE
    Mr. Poe. You stated in your testimony that ``the Administration 
will continue its work to identify and implement appropriate response 
options.'' The INF Treaty established the Special Verification 
Commission to address compliance concerns. Why have we not yet called a 
meeting of the Special Verification Commission to address Russia's 
violation?
    Secretary Gottemoeller. If we had any indication that the Russians 
would acknowledge this missile and engage productively in a Special 
Verification Commission (SVC) discussion to try to resolve these 
concerns, we would consider convening an SVC session. We have yet to 
see the political will from Moscow that would make such an experts-
level meeting productive. An additional complexity comes from the fact 
that an SVC session would be multilateral in nature, with additional 
countries, such as Belarus, Ukraine, and Kazakhstan, participating. 
That is because all the Soviet successor states became parties to the 
INF Treaty after the demise of the USSR. We will continue to raise our 
concerns bilaterally on multiple occasions and at various levels and 
departments with the Russian government.
    Mr. Poe. Why did it take the U.S. a full 6 years from the time of 
Russia's violation of the INF Treaty in 2008 and 3 years from our 
determination in 2011 that it was a violation until we notified our 
NATO allies in 2014?
    Secretary Gottemoeller. The United States did not have information 
in 2008 that the Russian Federation was violating the treaty. We have 
repeatedly noted that prior to the ratification in December 2010 of the 
New START Treaty, the intelligence community was not aware of any 
Russian activity inconsistent with the INF Treaty. Information 
regarding this system's testing history, the intelligence reporting 
associated with this program, the compliance determinations, and our 
work with allies has been made available to Congress many times through 
appropriate channels. This Administration believes that it is extremely 
important that this timeline be properly described and understood. 
Misunderstandings about the timeline could serve to confuse our allies 
or inadvertently obscure the nature of the Russian violation. We are 
happy to again provide a briefing to clarify the timeline of the 
violation.
    Mr. Poe. It has now been 7 years since Russia first violated the 
INF Treaty. Last year, when we were in this same room, Ms. Gottemoeller 
and Mr. McKeon, you testified that a list of responses was being 
prepared for a principals meeting. Were any of those responses ever 
approved? If so, what is the plan to implement those responses? Will we 
see anything in the administration's fiscal year 2017 budget request? 
Will any of the fiscal year 2016 funds be re-appropriated to implement 
these responses? If not, when can we expect a decision on those 
responses?
    Secretary Gottemoeller. We continue to consult with allies and 
review a range of appropriate options, including diplomatic, economic, 
and military options should Russia persist in its violation. Mr. McKeon 
can better speak to any potential budget requests and appropriations 
matters.
                                 ______
                                 
                   QUESTIONS SUBMITTED BY MR. COOPER
    Mr. Cooper. Is it still the administration's position that Russia 
should return to compliance with the treaty? Why is this in our 
interests versus withdrawing from the treaty now?
    Secretary Gottemoeller. The INF Treaty benefits the security of the 
United States, our allies, and the Russian Federation and contributes 
to stability in Europe and the Asia-Pacific regions. Accordingly, the 
priority of the United States is to return Russia to compliance with 
the INF Treaty and to ensure the Treaty's continued viability. Since 
2013, the United States has raised its concerns on multiple occasions 
and at various levels and departments within the Russian government in 
an effort to resolve this violation. It is in our national security 
interest and in our allies' interest that the INF Treaty remains in 
force and that Russia remains a State Party to the Treaty and complies 
with its obligations. We have made clear to Russia, however, that the 
United States will protect our security and the security of our allies 
and that Russian security will not be enhanced by continuing its 
violation. U.S. withdrawal from the Treaty at this time would be 
detrimental to the interests of the United States, our allies, and our 
partners for several important reasons. First, as Mr. McKeon noted in 
his testimony, the United States currently has sufficient capability to 
meet our defense requirements through sea-launched and air-launched 
cruise missiles which are not prohibited by the INF Treaty. Second, 
withdrawal would allow Russia to proceed unconstrained with the 
production and deployment of this ground-launched cruise missile 
system. Russia remains under limitations associated with covertly 
producing a reliable system, while more and more public scrutiny and 
knowledge builds with respect to this ground-launched cruise missile 
program. Third, a U.S. withdrawal from the INF Treaty would free Russia 
from its legal obligations under the Treaty, essentially letting Russia 
off the hook for its violation. Russia now has to make the political 
decision whether to come back into compliance with its obligations by 
eliminating the missiles and launchers in question or to withdraw from 
the Treaty and accept the damaging consequences for European and Asian 
security while attempting to proceed with the development of a ground-
launched cruise missile system under conditions of increased public 
visibility. We should not relieve Russia of the need to make this 
decision and allow it to attempt to shift blame to the United States 
for the demise of this Treaty.
    Mr. Cooper. How long did it take for Russia to return to the ABM 
Treaty when President Reagan urged the Soviet Union to return to 
compliance with the Anti-Ballistic Missile Treaty in the 1980s? Did we 
stop nuclear weapons reductions and related negotiations during the 
Soviet violation of the ABM Treaty?
    Secretary Gottemoeller. It took six years for the Soviet Union to 
take any significant steps to return to compliance with the ABM Treaty 
after the United States first revealed in the summer of 1983 that it 
had detected a large early warning radar under construction at 
Krasnoyarsk in the Soviet Union. This installation was roughly 800 
kilometers from the nearest border and thus in violation of the ABM 
Treaty (which required that all such radars be located on a party's 
periphery and oriented outward). The United States raised the issue 
with the Soviet Union in the fall 1983 Standing Consultative Commission 
(SCC) session dedicated to the ABM Treaty's second five-year review. In 
the autumn of 1989, the Soviet Union conceded that the Krasnoyarsk 
radar was a violation of the ABM Treaty and agreed to eliminate the 
radar without preconditions. Negotiations on both the Strategic Arms 
Reduction Treaty (1981-1991) and the Intermediate-Range Nuclear Forces 
Treaty (1981-1987) continued during the period of the Soviet violation 
of the ABM Treaty.
    Mr. Cooper. Is it still the administration's position that Russia 
should return to compliance with the treaty? Why is this in our 
interests versus withdrawing from the treaty now?
    Mr. McKeon. The INF Treaty contributes to the security of the 
United States, our allies and partners, and the Russian Federation 
while also enhancing stability in Europe and the Asia-Pacific regions. 
Accordingly, the priority of the United States is for Russia to return 
to compliance with the INF Treaty and to ensure the Treaty's continued 
viability. Since 2013, the United States has raised its concerns on 
multiple occasions and at various levels within the Russian Government 
in an effort to address this violation. We have also made clear to 
Russia that the United States will protect its security and the 
security of our allies and partners and that Russian security will not 
be enhanced by continuing its violation.
    U.S. withdrawal from the INF Treaty at this time would allow Russia 
to proceed unconstrained with the production and deployment of this 
ground-launched cruise missile system. A U.S. withdrawal from the INF 
Treaty would free Russia from its legal obligations under the Treaty, 
essentially eliminating the consequences of Russia's violation.
    Russia now has to make the decision whether to come back into 
compliance with its obligations by eliminating the missiles and 
launchers in question or to withdraw from the INF Treaty and accept the 
damaging consequences for European and Asian security. We should not 
permit the Russians to avoid the onus of making this decision.
    Mr. Cooper. Is there a military requirement to respond to the 
Russian violation?
    Mr. McKeon. The deployment of an INF Treaty-prohibited ground-
launched cruise missile system by the Russian Federation would increase 
the risk to U.S. allies and pose an indirect threat to the United 
States. As a result, the Department reviewed a broad range of military 
response options to consider the effect each option could have on 
countering the capability of a Russian INF Treaty-prohibited system.
    The Administration determined that the United States needed to 
consider Russian actions with regard to the INF Treaty in the context 
of its overall aggressive and bellicose behavior that flouts 
international legal norms and destabilizes the European and global 
security order. Since Russia is not violating the INF Treaty in 
isolation from its overall aggressive behavior, the Administration 
concluded that U.S. military responses cannot focus solely on the INF 
Treaty violation.
    More broadly, DOD continues to develop a comprehensive response to 
Russian military actions, taking into account the broader strategic 
environment and Russia's aggressive behavior, including its violation 
of the INF Treaty. U.S. responses involve a broad range of efforts--
within the Department, bilaterally with allies and partners, and within 
the NATO Alliance. These responses include increasing posture and 
presence, refocusing planning and shaping of future military activities 
in Europe, and improving defensive measures to neutralize or undercut 
Russia offensive capabilities.
    DOD's core objective remains the same: to ensure that Russia does 
not obtain a significant military advantage from its INF Treaty 
violation.
    Mr. Cooper. Does the Russian violation undermine U.S. military 
advantage or capabilities?
    What additional target coverage does Russia's INF noncompliant GLCM 
provide that cannot be covered by Russia's existing air- and sea-
launched cruises missiles?
    Does the Russian violation pose additional threats to the United 
States or its allies? What kind?
    Does the Russian violation undermine U.S. nuclear deterrent 
capabilities in any way?
    Mr. McKeon. [No answer was available at the time of printing.]
                                 ______
                                 
                   QUESTIONS SUBMITTED BY MR. TURNER
    Mr. Turner. During the December 1st hearing before the House Armed 
Services Subcommittee on Strategic Forces, I asked you a question 
regarding Russia's recent disclosure of the existence of a nuclear-
armed, nuclear-powered undersea delivery system. Specifically, I asked 
you whether or not you were aware of the existence of this system when 
you negotiated the New START treaty?
    During the open session, you stated that the answer to my question 
was an ``unequivocal no!''.
    At this time, would you like to retract or revise your original 
answer?
    Were you aware of the existence of a Russian nuclear-armed, 
nuclear-powered undersea delivery system when you negotiated the New 
START treaty?
    Secretary Gottemoeller. Thank you for your question. During the 
hearing, I misunderstood the nature of your question and I apologize 
for any confusion this may have caused. I appreciated the opportunity 
to be able to discuss this issue in detail during the closed session 
that immediately followed the open session. It was helpful to be able 
to talk in that environment, given the sensitivity of this issue. I 
understand that the Intelligence Community (IC) has reached out to the 
Committee regarding this issue, and I appreciate your attention to this 
matter. Further background information on this topic is also being 
provided to this Committee by the IC under separate cover as a 
classified annex. The Administration, through the work of the IC, 
regularly provides Congress with authoritative assessments of what the 
United States knows and does not know regarding Russian nuclear weapons 
systems. This sharing of information is done regularly to keep staff 
and members abreast of these issues, to better inform our diplomacy and 
policymaking in the Administration, and to aid in the legislative 
process. Following the December 1 public hearing, Administration 
briefers, including me, provided members and staff with information in 
a closed setting to respond in detail to a number of sensitive issues 
raised during the open hearing, in order to (1) inform both 
subcommittees with the most substantive, detailed information possible, 
and (2) best protect the sources and methods by which the IC obtains 
information. We are happy to continue to discuss this issue in the 
appropriate setting.

                                  [all]
</pre></body></html>
